<html>
<title> - DEADLY CONSEQUENCES OF ILLEGAL ALIEN SMUGGLING</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        DEADLY CONSEQUENCES OF 
                        ILLEGAL ALIEN SMUGGLING

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2003

                               __________

                             Serial No. 29

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary






                        U.S. GOVERNMENT PRINTING OFFICE

87-993                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001

                             



                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                           Lora Ries, Counsel

                   Art Arthur, Full Committee Counsel

                  Cindy Blackston, Professional Staff


                   Nolan Rappaport, Minority Counsel





                            C O N T E N T S

                              ----------                              

                             JUNE 24, 2003

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     3
The Honorable Jeff Flake, a Representative in Congress From the 
  State of Arizona...............................................     5
The Honorable Linda T. Sanchez, a Representative in Congress From 
  the State of California........................................     7
The Honorable Steve King, a Representative in Congress From the 
  State of Iowa..................................................     8
The Honorable Lamar Smith, a Representative in Congress From the 
  State of Texas.................................................     9

                               WITNESSES

Mr. Jose Garza, Chief Patrol Agent, McAllen Sector, Border 
  Patrol, Bureau of Customs and Border Protection, Department of 
  Homeland Security
  Oral Testimony.................................................    12
  Prepared Statement.............................................    13
Mr. Tom Homan, Interim Resident Agent-In-Charge, San Antonio, TX, 
  Bureau of Immigration and Customs Enforcement, Department of 
  Homeland Security
  Oral Testimony.................................................    16
  Prepared Statement.............................................    20
Mr. Peter Nunez, Former U.S. Attorney, San Diego, CA
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Ms. Maria Jimenez, Chair, Mayor's Advisory Committee for the 
  Office of Immigrant and Refugee Affairs, City of Houston, TX
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28

                                APPENDIX
               Material Submitted for the Hearing Record

Federation for American Immigration Reform Statement.............    55
Law Enforcement Advisory Council Letter..........................    57
Prepared Statement by the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    66
Prepared Statement by the Honorable Jeff Flake, a Representative 
  in Congress From the State of Arizona..........................    68
The Honorable Sheila Jackson Lee article from Daily News re: 
  Golden Venture.................................................    70
DHS sign warning against illegal alien smuggling.................    74


                        DEADLY CONSEQUENCES OF 
                        ILLEGAL ALIEN SMUGGLING

                              ----------                              


                         TUESDAY, JUNE 24, 2003

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:10 p.m., in 
Room 2141, Rayburn House Office Building, Hon. John Hostettler 
(Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    The recent tragic discovery of 17 dead illegal aliens in an 
abandoned truck trailer filled with more than 70 illegal aliens 
in Victoria, TX, has turned the spotlight onto alien smuggling 
once again.
    This tragedy was compounded when two more of these 
immigrants succumbed to their injuries. Unfortunately, border 
deaths of aliens trying to enter the United States illegally is 
not a new phenomenon; rather, the manner of death seems to have 
changed over the decades.
    Years ago, border deaths primarily occurred by the aliens 
drowning or being hit by traffic while running across 
Interstate 5 near San Diego, for example. This latter 
phenomenon was the cause for caution highway signs, like the 
one we see here in the hearing room, to be posted along 
Interstate 5 to prevent more aliens fleeing from the Border 
Patrol from being hit by traffic.
    In 1994, the Border Patrol began implementing a new border 
strategy, the best known examples of which are Operation 
Gatekeeper in the San Diego Sector and Operation Hold the Line 
in El Paso, TX. The new strategy focused on deterrence on the 
border to prevent illegal aliens from penetrating the border. 
This approach differs from the border patrol's previous 
operational strategy that mixed deterrence with traffic checks, 
farm and ranch checks and jail checks.
    The new strategy curtailed such Border Patrol interior 
enforcement activities significantly in favor of a greater 
emphasis on a show of force at the border to prevent illegal 
immigration. With these operations in place, ports of entry in 
nearby areas are more adequately monitored by agents, cameras 
and motion sensors.
    Citizens in the San Diego and El Paso areas are pleased 
with the operations because they have caused a decrease in 
crime, and closed down the alien smuggling corridors in their 
communities. According to several witnesses at a March 10, 1995 
border security hearing held by this Subcommittee, Operation 
Hold the Line is humane enforcement of our immigration laws, 
and has lessened the number of accusations of civil rights 
violations by Federal officials, including the Border Patrol.
    In addition, the Border Patrol has launched public service 
advertising campaigns in Mexico, warning of the dangers of 
remote crossings and devoted resources to search and rescue 
training and operations. Illegal aliens still determined to 
enter the U.S. Unlawfully cross the southern border at more 
remote areas, particularly in Arizona desert land away from the 
ports of entry.
    In doing so, they disregard signs warning of the heat, lack 
of water, desolation, great distances and dangerous animals. 
Not unexpectedly, some die from these conditions.
    Human rights advocates point to recent alien deaths along 
the border and argue that the significant number of deaths is 
caused by border control policies along the southern border.
    I totally reject this notion. We should not blame those who 
enforce our laws for the deadly actions of smugglers. Those of 
the Border Patrol who, time and again, have saved illegal 
aliens from dehydration, exposure and violence are not to be 
blamed for the difficult job they carry out with 
professionalism and compassion.
    We in Congress have to ask why would people place 
themselves in such jeopardy to get into this country? It seems 
clear that aliens who subject themselves to smuggling believe 
the benefits of jobs and eventual green cards outweigh the 
risks of being caught and deported.
    In 1986, Congress passed the Immigration Reform and Control 
Act, which created two significant provisions, employer 
sanctions to end the migration magnet of jobs and legalization, 
an amnesty for illegal aliens who had resided in the U.S. For a 
number of years.
    The goal of IRCA was to end illegal immigration with these 
two provisions. Clearly IRCA has not worked. The job magnet 
continues because employer sanctions are not enforced and 
employers fear civil rights actions if they request too much 
proof of identity and work authorization.
    In addition, after the one-time amnesty of IRCA, we now 
have between 8 and 11 million illegal aliens here, and people 
are again talking about another amnesty. Amnesty rumors 
encourage aliens to get into the U.S. By any means, because 
once here, they know it is unlikely that they will be deported 
and believe they will eventually be awarded with a green card.
    Hence, the dangerous smuggling and border deaths. It can be 
argued that advocating for amnesty for illegal aliens 
encourages smuggling and causes border deaths.
    I haven't even touched upon the relationship between 
smuggling and terrorism yet. Available information indicates 
terrorist organizations often use smuggling rings to move 
around the globe. We are compelled to prevent alien smuggling 
and severely punish alien smugglers, not only to save 
immigrants lives, but to prevent terrorists from entering this 
country with the intent to kill large numbers of people.
    By accepting illegal immigration and by not enforcing our 
immigration laws, illegal aliens are encouraged to get to the 
U.S. By whatever means possible, even if it means risking their 
life or the lives of their children.
    It is imperative that we enforce our immigration laws so 
that aliens are not tempted to risk their lives to get here. At 
this time, I turn to the Ranking Member of the Subcommittee, 
Ms. Jackson Lee for any opening remarks she would like to make.
    Ms. Jackson Lee.  Thank you very much, Mr. Chairman. And 
thank you for assenting to my interests, along with your 
interests, to hold, I believe, this very, very important 
hearing.
    Let me, first of all, say that we appreciate the hard work 
of all of those who are involved with the safety of this 
Nation. We particularly respect and acknowledge that there are 
many participants in that process.
    Having had the opportunity to visit the southern border and 
to see the combination of law enforcement agencies that work so 
hard every day, to see in many instances the compassion that is 
shown for individuals who are coming to this Nation for 
opportunity, I know that this is not a left-hand, right-hand 
analysis. There is a lot in the middle.
    Let me also acknowledge, coming from Texas, the many 
humanitarian agencies--churches, parishes, and advocacy 
groups--who work every day to save lives as well, of those 
individuals who come simply to this Nation to seek an 
opportunity or a better life for their families.
    Also, I do want to make mention, Mr. Chairman, and we 
always work in this Committee, in this session, on issues that 
we can agree on. But, we know that philosophically there are 
many differences in our perspective. I am sorry that we did not 
follow through on the dialogue and conversations that President 
Vicente Fox and Mr. Bush had pre 9/11.
    Those discussions would not in any way, I believe, 
jeopardize the security of this Nation. And that is, to be able 
to actualize peoples' hopes and aspirations as relates to those 
already in this country in accessing legalization. We come 
today to look upon the deadly consequences of illegal alien 
smuggling.
    Coming from the region that I come from, I can assure you 
that after the tragedy that occurred in May, the many stories 
of these families and the many stories of the loved ones, the 
loss of life of a 7-year-old boy, and his father, all of them 
seeking opportunities. I don't believe there was a terrorist 
amongst the group, nor have we determined the bulk of these 
individuals come to do harm.
    With that in mind, however, I still believe we must find 
the right kind of balance. Last week, prosecutors indicted 14 
people who allegedly organized or facilitated the smuggling 
incident that ended on May 14th, when a crowded trailer was 
found abandoned at a truck stop in Victoria, 100 miles 
southwest of my home town of Houston.
    The 14 were charged with various counts of conspiracy to 
conceal or transport immigrants. Twelve could face the death 
penalty if prosecutors decide to pursue it. More than 70 
immigrants from Mexico, Central America and the Dominican 
Republic were crammed into the tractor trailer. Among the dead 
was a 5-year-old boy from Mexico. 17 immigrants died at the 
scene, and three others have died later. That is the human 
tragedy. And this hearing must put a human face to that loss.
    According to U.S. Attorney Michael Shelby, alien smuggling 
is all about money. These aren't people who are trying to make 
a better life for others, that is the smugglers, and just 
providing them a pathway, this is about an American dollar and 
people that will do anything and risk anyone's life in order to 
gain that dollar bill.
    I can imagine that that tractor trailer driver thought that 
he was doing nothing more than would warrant a traffic ticket. 
In this incident, the price per immigrant was $1,500 to $1,900. 
Alien smugglers have reaped millions of dollars in profit with 
some not only collecting a fee up front, but also robbing, 
beating and raping the immigrants once they get into the United 
States.
    Last year, the General Accounting Office investigative arm 
of Congress was critical of the U.S. Immigration and 
Naturalization Service, with respect to its efforts to combat 
alien smuggling. The GAO said that the INS efforts to curb the 
smuggling were disorganized, seldom tracked, and did not meet 
the required level of accountability.
    The investigators stated further that in several border 
States, including Arizona, multiple antismuggling units existed 
that had overlapping jurisdictions, but were unable to handle 
the job properly. The INS has since been disbanded and its 
enforcement divisions have been folded into the Department of 
Homeland Security as part of the Customs and Border Protection.
    It does not follow necessarily, however, that this 
organizational change will result in more effective field 
operations. We need to do a better job. The Arizona border with 
Mexico has become the hub of alien smuggling, about one-third 
of the 1.2 million arrests of undocumented immigrants that the 
Border Patrol expects to make this year will occur along that 
border.
    Last year Border Patrol agents in Tucson Sector apprehended 
449,679 undocumented aliens, more than 1,200 a day. We must get 
to the bottom line of this particular issue.
    And, Mr. Chairman, I have been working on this issue for a 
very long time, as I have watched it. Now, more closely, in 
light of the fact that we had this enormous number of deaths. 
Our highest priority should be to solve to problem and to 
reduce deaths. I will be introducing a bill that I would look 
forward to receiving bipartisan support working with our 
advocacy groups, our law enforcement groups, that will have a 
three-point program. The first point of this program would 
provide incentives to encourage informants to step forward and 
assist the Federal authorities in order to smash these rings.
    My bill would also involve the ability to access 
legalization for those who would come into the country who 
would help us smash those rings. My bill would establish a new 
third category for aliens who assist the United States 
Government with the investigation, prosecution and conviction 
of commercial smuggling operations. This would be a 
nonimmigrant visa classification. The real incentive, however, 
would not be a nonimmigrant, visa, it would be a lawful 
permanent resident status.
    In addition, the bill would offer a monetary incentive to 
become an informant. It would establish a reward program to 
assist in the elimination or disruption of commercial alien 
smuggling operations in which aliens are transporting groups of 
10 or more, and where either the aliens are transported in a 
manner that endangers their lives or the smuggled aliens 
present a life-threatening health risk to the people in the 
United States.
    The rewards program will be similar to the one the State 
Department presently uses to obtain informant's information. We 
have been able to talk to a number of law enforcement agencies, 
and Federal agencies, who find these aspects of this 
legislation to be not only humanitarian, but more importantly, 
they believe that this will go a long way to help smash the 
commercial smuggling rings that do so much to undermine the 
lives and cause the deaths of innocent persons.
    Today this hearing, I believe, will go a long way in giving 
us insight, and I am delighted as well that the Chair will be 
introducing Maria Jimenez, who has always been an advocate for 
the rights of immigrants in a positive way. She has founded the 
AFSCILEMP, Immigration Law Enforcement. She has been monitoring 
these efforts since 1987. She has also played an important role 
in the creation of various other programs in the community, the 
Houston Immigration and Refugee Coalition, and she has worked 
very hard to bring a balance to the lives of those who seek 
simply an opportunity.
    Mr. Chairman, I thank you, and I would ask to submit the 
entirety of my statement into the record.
    Mr. Hostettler. Without objection.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Arizona, for 5 minutes, Mr. Flake, for an opening statement.
    Mr. Flake. I thank the Chair. I thank the Chair for holding 
this important hearing. I have actually been requesting a 
hearing like this on the border in Arizona for a couple of 
years now. I think we would all benefit from actually going to 
the border and see what we face right up close and personal.
    But, this is a good start. I am glad we are here today. If 
you read the papers in Arizona, you see that just about every 
day in the summer, on the average, more than one immigrant dies 
every day in the summer time in Arizona, crossing during the 
desert heat. It is a very troubling situation. There are 
countless stories of lost lives, destroyed property, and 
mistreated people.
    We have got to do something to change it. In addition, 
health care costs in Arizona have skyrocketed. Hospitals have 
had to cut back crucial services to the population in Arizona, 
because of the cost of treating those who cross the border 
illegally.
    Shootings on the border are happening more frequently all 
the time. Frustrated property owners have seen their property 
destroyed and fearing that immigrant traffic across their 
property will destroy more, have taken matters into their own 
hands. It is a very unhealthy situation. Family members of 
illegal aliens who have perished in the desert are now seeking 
redress by suing the U.S. Government.
    We are having situations like that as well. We may not 
agree with the choices taken by these immigrants to break the 
law, but you can't help but be moved by the fate that awaits 
them, and the abuse at the hands, in particular, of smugglers.
    As legislators, we are charged with addressing these 
problems. And I think that we in Congress have to stand up and 
see what we really can do, and not just say this is what we 
have done in the past, we are going to do more of this. But 
let's do what is going to work. And I feel that we have to have 
a relief valve of some type in the border region to allow those 
who are similarly coming to work, for no other reason than to 
provide a better life for their family, to provide a temporary 
worker program, to direct the flow of workers through legal 
channels.
    If we do that, we can free up a lot more resources to 
actually focus on those who would do us harm. And we always 
have to be reminded that the border region is dangerous. We 
cannot take it for granted that everyone who is coming here is 
coming just for work. But we know that overwhelming majority of 
those who come across are coming just for that reason.
    There is a demand in the U.S. for the labor that Mexican 
laborers, in particular, are willing to provide. And we can't 
turn a blind eye to that. The market forces are just too strong 
to resist. I believe that many of the aliens that are coming 
across know the risks quite well, and they are still willing to 
take them, that is how strong the pull is. And that is why we 
have to address it.
    If we have a legal channel, as I mentioned, then we can 
address that much more easily. It used to be, prior to 1986, 
before the Immigration Reform and Control Act, the flow of 
immigrants from Mexico to Arizona was largely circular. The 
average stay of an immigrant was about 2.6 years. What we 
managed to do with increased border enforcement is ensure that 
those who make it here actually stay longer.
    The average stay now is 6.6 years. So we haven't actually 
stopped anybody, I would maintain, that really wants to get 
here. We have made it more difficult. What we have done is make 
sure that those who manage to get here stay longer. It is more 
difficult to go home and visit their families. So they are more 
likely to bring their families with them. So they won't have to 
cross the border again and again. We have to address this. We 
have to have a legal framework to do so.
    From 1986 to 1998, the number of tax dollars that Congress 
appropriated the INS increased eightfold, sixfold for the 
Border Patrol alone. The number of Border Patrol agents 
assigned to the southwest border doubled to 8,500. But the end 
result, we still have 7 million illegal immigrants here in the 
U.S. How can we honestly tell the taxpayers that our strategy 
has been a success? We have got to take a new approach.
    According to Steven Camarota of the Center for Immigration 
Studies, a real effort to control the border with Mexico would 
require perhaps 20,000 agents, and development of a system of 
formidable fences and other barriers along those parts of the 
border used for illegal crossing.
    I would say that the wisdom of embarking on such a strategy 
is suspect at best. We have to recognize that if you sealed the 
border tight as a drum, theoretically, and I don't believe you 
could, but theoretically if you did, 40 percent of those who 
are here illegally entered the country legally. And you not 
going to solve the problem that way. We have got to look at 
other things as well.
    Myself and a couple of colleagues, Congressman Kolbe, 
Congressman Reyes, are working on legislation to address these 
concerns. We know that along the border region, immigrant 
smugglers can earn up to $1.5 million dollars a day. Not each 
but as a whole. With that kind of money, with those kind of 
market forces, it is simply irresistible. We need to take a 
serious look at what our current border policy has wrought, and 
acknowledge that there may be a better away to address this 
situation. We need to put the smugglers out of business by 
formulating a more realistic approach.
    I thank the Chair again for this important hearing and look 
forward to the testimony of the witnesses.
    Mr. Hostettler. I thank the gentleman from Arizona. The 
Chair now recognizes the gentlelady from California, Ms. 
Sanchez, for an opening statement.
    Ms. Sanchez. Thank you Chairman Hostettler, and Ranking 
Member Jackson Lee for holding this important hearing. And 
thank you to the witnesses for being here today to discuss the 
problem of immigrant smuggling. Last month we were shocked to 
hear about the deaths of 19 immigrants who had been smuggled 
into Texas in a tractor trailer. 19 people suffocated while 
trapped in the back of a truck. I say we are shocked, but sadly 
I don't think we are very surprised.
    The truth is, that deaths along the border occur far too 
frequently. For the past 18 years, there have been border 
deaths of 200 to 400 people almost every year. Not all of those 
are coming across the Mexican border either. Deaths happen 
among the boatloads of people coming from Asia and the 
Caribbean as well.
    So who is at fault here? It is hard to really say. The 
smugglers, I think we can all agree, are at fault for 
transporting people in deadly conditions. But, is it fair to 
say that this country bears part of the blame? Maybe.
    Perhaps our immigration policies have created an 
environment where desperate people will take desperate measures 
just for the small chance of improving their lives.
    Conditions in the majority of countries around the world 
are frightening. Nearly 50 percent of people living in 
subSaharan Africa in 1998 were surviving on less than $1 a day.
    In 1995, when per capita income in North America was 
roughly $22,000, the majority of the people of the world were 
surviving on less than half of that, $10,000 per capita in 
Eastern Europe and Central Asia, a mere couple of hundred 
dollars in Asia and the Pacific. So it should not be surprising 
that some people, unable to enter this country legally, are 
willing to take great risks and find another way to enter.
    There may be other parties to blame as well. There are 
American companies actively seeking out and enticing workers 
from across the border to come here undocumented, for work, 
because these companies know that they can pay them low wages 
and no benefits.
    The bottom line to me is that people are dying and we need 
to address the problem. We need to work together to figure out 
what make the various--what are the various causes and how we 
can remove them. Cracking down on smugglers is certainly one 
step, but it doesn't solve the ultimate problem.
    Until we take sensible positions on immigration and address 
the core reasons why people emigrate, we cannot expect this 
problem to go away. Clamping down on the borders is likely to 
lead to even more desperation. Maybe it is time for this nation 
to revisit guest worker programs that allow workers to 
ultimately adjust their status and become fully participating 
members of society.
    I look forward to hearing from the witnesses on this 
important and timely topic. And I yield back the balance of my 
time.
    Mr. Hostettler. I thank the gentlelady from California. The 
Chair now recognizes the gentleman from Iowa, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman. I want to thank you for 
holding this important hearing. I want to thank the witnesses 
in advance for what you are about to present to us. My home 
community where I graduated from high school is Denison, Iowa, 
where we lost 11 illegal immigrants in the train car last fall. 
That loss, it was ghastly and it was shocking, and it shocked 
and grieved my community and the communities of those families 
who lost those victims to that crime, and it was more than one 
kind of crime.
    As I look across this list that I see, actually from Mr. 
Homan's testimony, 11 in Iowa, 17 in Texas, 3 in Washington, 6 
in California, I think Mr. Flake has the strongest argument in 
Arizona, 133 incidents, 10 in New York, 41 Florida. I know this 
isn't all of the statistics, but I know it is a representative 
sample of what we are seeing here and what we are up against.
    There are going to be two different viewpoints on this. One 
of the viewpoints says, whatever fashion, in whatever nuance, 
open the borders and we won't have this problem. The other one 
says, if we do that, what kind of problems will we create? And 
I think that Ms. Sanchez brought up something that is very 
interesting to me, and an interesting perspective that we all 
need to evaluate. That is, the question that I asked at a 
hearing last week is, what does this country look like? What 
does the world look like if we simply erase our borders and go 
with an open borders policy without restriction?
    None of those testifiers at that hearing seemed to have an 
answer to that question. I was kind of surprised at that. I 
think that this is the question that we need to be asking, in 
all of the policy that we implement from here on out, and the 
policy that we have implemented in the past should have taken 
into account. We should have that equation in mind.
    So I propose this one: If you want to have some kind of a 
prediction of what people will do, start with the premise that 
people follow money. And that is the reference that Ms. Sanchez 
brought forth. I would do this, take the population of the 
United States, and divide it by our gross domestic product. 
Then take the population of our contiguous neighbors, 
individually, and divide that by their gross domestic product.
    Compare those two figures and therein you will see the 
incentive for illegal transfer across the border. It is an 
economic equation. There is also a social equation here. We 
have a culture that is attractive, that we should preserve and 
protect it. We have a good educational system. We have a high 
quality of life. All of those things are part of it. But we can 
quantify and understood the economic equation.
    Then, if you can look at the comparison between our 
southern border, which we are talking about here today, and the 
differences between the individual income, the average per 
capita income of the two nations, if you can measure that and 
see that quantifiable difference, then think about the 
implications of the open borders beyond that--open borders that 
go into the western hemisphere and around the world--and in 
fact, we already have an open borders policy in this country. 
Anyone who wants to come into the United States and can make a 
credible allegation of citizenship can enter into the United 
States of America through any country, and from the western 
hemisphere except for Cuba. And I am not convinced that all of 
those countries have a real tight border policy. So we can go 
into the discussion about how important it is to preserve our 
borders, and how we are going to be able--if we don't do that--
how the sovereignty of any nation can be sustained without 
preserving its borders.
    But I am going to be interested in looking at this from the 
perspective of how we improve border security and how we 
improve internal enforcement. Attorney General Ashcroft sat 
there a couple of weeks ago. And of those who were adjudicated 
deported, 85 percent blended back into society.
    So I am going call this the 85 percent rule. If 85 percent 
whom we spend the money, and I can't verify this number, but I 
am hearing $35,000 as kind of an average cost for adjudication 
for deportation. If we spent that kind of money and that kind 
of effort to deport people, and 85 percent of them simply 
disappear back into society, and then the 85 percent rule also 
applies, and that is 85 percent of the methamphetamine that 
comes into Iowa comes across our southern border.
    Those two factors mean something to me. I think we have a 
responsibility to the citizens of this country to provide them 
the best opportunity for a high standard of living. We have got 
an obligation to provide those opportunities in other countries 
in the world and export our economy and the way of life.
    This is my perspective and I am interested in your 
testimony. Thank you, Mr. Chairman. I yield back.
    Mr. Hostettler. I thank the gentleman from Iowa.
    I would like to now introduce the panel----
    Oh, excuse me. I apologize. The Chair now recognizes the 
gentleman from Texas, Mr. Smith, for his opening statement.
    Mr. Smith. Thank you, Mr. Chairman. I know you are eager to 
get going. And I won't take up my entire 5 minutes. 
Unfortunately, I have a conflict at 11 o'clock, so I appreciate 
the opportunity to make some opening comments since I may not 
be able to stay for the question period.
    And let me just say that during the question period, I hope 
that our witnesses will have an opportunity to respond to a 
crying need to try to prevent these terrible tragedies from 
occurring in the future.
    But, I think that if we are going to be successful in this 
prevention effort, it is going to require the cooperative 
effort of both countries, when we are talking about our 
southern border, both the United States and Mexico. And I hope 
one or more of our witnesses will respond and let us know for 
instance what the country of Mexico is doing to try to prevent 
or to try to discourage individuals from heading north, into 
dangerous circumstances, dangerous environment and 
unfortunately many times leading to their deaths.
    But, what is the country of Mexico doing to discourage this 
type of illegal immigration that unfortunately results in these 
kinds of tragedies that the hearing is on today?
    The other thing, Mr. Chairman I want to mention, is that it 
has been a surprise to me to hear some people say that as a 
result of these deaths, as a result of the harm that is 
occurring to individuals who are trying to come into the 
country illegally, that somehow that is an argument for 
legitimizing illegal immigration or regularizing illegal 
immigration or making it easier for people to come into the 
United States. I just don't see it that way.
    Just to propose an analogy here. If, for example, you have 
a lot of people trying to break into your house, may instead of 
the country, but using the metaphor here, if you had a lot of 
people trying to break into your house, the answer isn't to 
open your doors and say, well, whoever wants to come in, come 
in or make it easier for people to do so. That is going to even 
lead to more dire consequences, for, in this case, the 
homeowner, or for the United States.
    So I think we need to be careful as to how we use these 
tragedies, and not use them in a way that I don't think is 
logical.
    The other things that I have also heard some people say, 
that somehow this is the United States's fault because we are a 
prosperous country and have jobs for people. And that somehow 
that attraction is responsible for peoples' deaths.
    Well, again the analogy to me is like a homeowner who might 
have some nice possessions in his house, he might have a big 
screen TV, he might have some jewelry. And, if is someone is 
trying to break into that house, I don't consider that to be 
the fault of the homeowner with the nice things in his house. I 
think you still need to prevent people from taking illegal 
actions and protect the people who have a right to live under 
the laws of their country.
    And so I don't think we ought to use these tragedies to try 
to promote certain immigration policies that are inimical to 
the best interests of the United States. What we ought to try 
to do, as I started off by saying, is to coordinate and 
cooperate with the country of Mexico to try to prevent these 
deaths from occurring in the first place, not take actions that 
either condone those actions or lead to more dire consequences 
for the people who live in the United States.
    I thank you, Mr. Chairman. I yield back.
    Mr. Hostettler. Thank the gentleman for his opening 
statement.
    The Chair will now recognize the panel of witnesses for 
introductions. Jose Garza has been the Border Patrol's chief 
patrol agent in the McAllen Sector since 1995. He previously 
served as chief patrol agent in the Laredo Sector for 9 years.
    Agent Garza began his career with the Border Patrol in 1969 
as an agent in Laredo, TX. He also has been an immigration 
inspector and supervisory inspector, officer in charge of two 
international land border ports of entry, assistant chief 
patrol agent and deputy chief patrol agent. Prior to joining 
the border patrol, Agent Garza served in the U.S. Navy.
    Tom Homan is the Bureau of Immigration and Customs 
Enforcement Interim Associate, Interim Special Agent in Charge 
in San Antonio, TX. He entered on duty with the border patrol 
in 1984 and was in the San Diego sector until 1998.
    He served as a special agent, supervisory special agent, 
deputy assistant, district director for investigations in 
Phoenix, AZ, and assistant district director of investigations 
in both San Antonio and Dallas, TX.
    Agent Homan has worked anti smuggling investigations 
resulting in the dismantling of 13 alien smuggling 
organizations. He was one of the lead investigators in the 
recent Victoria, TX, smuggling investigation.
    Peter Nunez began his career in law enforcement in 1972 as 
a Federal prosecutor in the U.S. Attorney's Office in San 
Diego, CA. He was appointed as the U.S. Attorney in San Diego 
by President Reagan in 1982, where he served through August 
1988.
    In 1990 he was appointed by President George Bush to be the 
Assistant Secretary of the Treasury for Enforcement. Mr. Nunez 
is a member and past president of the San Diego Crime 
Commission, the past vice president of the San Diego Prevention 
Coalition, a member of the board of directors of the Center for 
Immigration Studies, and a member of the board of visitors at 
the University of San Diego School of Law.
    He has been a lecturer in the political science department 
at the University of San Diego since 1997, specializing in 
criminal justice, international law enforcement, and 
immigration policy.
    Mr. Nunez graduated from Duke University, served in the 
U.S. Navy, and graduated from the University of San Diego's 
School of Law.
    Maria Jimenez is the chair of the Mayor's Advisory 
Committee for the Office of Immigrant and Refugee Affairs of 
the City of Houston. She has always been an advocate for 
immigrant rights. She founded the immigration law enforcement 
monitoring project in 1987 and created various other community 
groups such as the Houston Immigration and Refugee Coalition.
    Ms. Jimenez worked as a union organizer in Texas, and 10 
years as a community organizer and adult educator in Mexico. 
She sits on several boards, including the AFL-CIO Union 
Community Fund and has received several community service 
awards.
    I thank the witnesses for being here today. Mr. Homan's 
full testimony will be over 5 minutes because he brought with 
him some very enlightening video of a smuggling operation. So I 
will be a little lenient with the 5-minute oral testimony rule 
today.
    Mr. Garza, the floor is yours, and without objection, your 
full testimony will be in the record. And you are free to 
testify at this time.

 STATEMENT OF JOSE GARZA, CHIEF PATROL AGENT, McALLEN SECTOR, 
    BORDER PATROL, BUREAU OF CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Garza. Chairman Hostettler, Ranking Member Jackson Lee, 
distinguished Subcommittee Members, I am honored to have the 
opportunity to appear before you today to discuss the efforts 
of the U.S. Border Patrol to prevent and deter the entry and 
smuggling of undocumented aliens into the United States.
    My name is Jose E. Garza, and I am the chief patrol agent 
of the McAllen, Texas Border Patrol sector, Bureau of Customs 
and Border Protection. I would like to begin by giving you a 
brief overview of the McAllen Border Patrol Sector. The McAllen 
Sector is one of 21 border patrol sectors nationwide. We are 
responsible for patrolling 284 miles of international border 
between the United States and Mexico, and 232 miles of 
coastline along the Gulf of Mexico.
    We are responsible for 19 South Texas counties which cover 
17,000 square miles. We have 1,484 uniformed agents assigned 
and 200 support personnel. The workforce is deployed at nine 
stations, which include two checkpoint stations and one coastal 
station located at Corpus Christi, TX.
    In 1997, illegal immigration was at all time high in the 
McAllen Sector. Border violence, drug and alien smuggling were 
rampant. Farmers and ranchers and the local community were 
complaining about the increasing numbers of illegal aliens 
transiting their properties. Local police were responding to 
numerous complaints relating to illegal entrants committing 
crimes and other offenses in the Brownsville, TX area on a 
daily basis.
    Fiscal year 1997 was a big year for sector apprehensions as 
we arrested nearly 245,000 illegal entrants. In August 1997, 
McAllen Sector initiated Operation Rio Grande as part of the 
Border Patrol's national strategy to control the border.
    The concept of the operation was to forward deploy agent 
and technical infrastructure to the immediate border to prevent 
and deter illegal entry into the country.
    Our operational manpower doubled from 701 agents to the 
present level of 1,484. Technical infrastructure such as 
lighting, sky watch observation platforms, infrared cameras, 
boats, fingerprinting technology, night vision equipment, 
aircraft and other equipment were purchased and provided the 
McAllen Sector.
    Our efforts have been very successful with decreases in 
illegal entries since Operation Rio Grande began. I am proud to 
say that in fiscal year 2002 we apprehended 89,928 illegal 
entrants which is a 63 percent decrease from the 1997 levels 
when we apprehended nearly 245,000.
    Fewer illegal entries have resulted in positive 
relationships with farmers, ranchers in our area and also with 
the communities. Crime rates in places like Brownsville, TX 
have decreased, increasing officer safety, safety of aliens and 
safety of the Brownsville residents.
    Due to our efforts in reducing the number of illegal 
entrants in McAllen Sector, we never experienced problems with 
vigilante groups, citizens or ranchers taking the laws into 
their own hands. Building on the public safety and humanitarian 
initiatives embraced by the U.S. Border Patrol, the McAllen 
Sector has been a leader in initiating various border safety 
initiatives to help reduce accidents, incidents and loss of 
life along the border.
    Among these initiatives are Operation Life Saver, which is 
the establishment and promotion of a sector 1-800 toll free 
number where citizens can call for assistance or to report 
suspected illegal activity. We have trained 44 emergency 
medical technicians and four paramedics, equipped border patrol 
vehicles with water rescue and first responder equipment to 
render aide to victims of border violence and crime.
    Providing swift water rescue training to Border Patrol 
agents and Mexican officers, initiation of a Border Patrol boat 
patrol to patrol the Rio Grande River 24 hours a day, filming 
public service announcements that have been aired in Mexico, 
Central America and the United States.
    Producing a videotape that is shown to all aliens coming in 
contact with McAllen Sector Border Patrol agents, warning them 
of the dangers involved in crossing the border illegally.
    The sector in addition to all of these initiatives 
maintains three 24 hour per day, 365 day per year traffic 
checkpoints at strategic locations leading from the border to 
the interior of the United States.
    These inspection stations are an integral part of our 
layered border control strategy and the last line of defense at 
the border. The traffic flows through these stations are 
voluminous, and we are not capable under our present 
infrastructure and governing Supreme Court decision to inspect 
and search every vehicle. They, however, are a deterrence and 
disrupt a tremendous amount of elicit activities and smuggling 
to the interior of the United States.
    Since March of 2003, the Border Patrol has been part of the 
Bureau of Customs and Border Protection. We are still adjusting 
to the transition.
    We believe that with the increased communication, 
coordination and one mission, which is protection of the 
border, that our reorganized border patrol will be able to do a 
better job. With the recent tragedies on the border and 
attention on our national security, the importance of having a 
strong border patrol cannot be overemphasized. I would like to 
thank the Committee for the opportunity to present this 
testimony today, and I would be pleased to respond to any 
questions the Committee may have.
    Mr. Hostettler. Thank you, Agent Garza.
    [The prepared statement of Mr. Garza follows:]
                  Prepared Statement of Jose E. Garza
    Chairman Hostettler, Ranking Member Jackson Lee, and distinguished 
Subcommittee Members, it is my honor to have the opportunity to appear 
before you today to discuss efforts to prevent and deter the illegal 
entry and smuggling of undocumented aliens into the United States, 
through operations and law enforcement initiatives of the United States 
Border Patrol, now a component of the newly created Bureau of Customs 
and Border Protection.
    My name is Jose E. Garza, and I am the Chief Patrol Agent of the 
McAllen, Texas Border Patrol Sector, Bureau of Customs and Border 
Protection. I would like to begin by giving you a brief overview of the 
McAllen Border Patrol Sector.
    The McAllen Sector is one of twenty-one Border Patrol sectors 
nationwide and serves an integral part in securing our nation's 
borders. We are responsible for patrolling 284 linear miles of 
international border between the United States and Mexico, and 232 
miles of coastline along the Gulf of Mexico, encompassing 19 South 
Texas counties which cover 17,000 square miles. We have 1,482 uniformed 
officers assigned to McAllen Sector, who perform various types of 
enforcement duties. The agents are deployed at nine stations, two of 
which are specifically assigned traffic checkpoints in Falfurrias and 
Kingsville, Texas, and one that is coastal station in Corpus Christi, 
Texas.
    In late summer, 1997, illegal migration in McAllen Sector was at an 
all-time high. 2The indicators that the situation was critical were 
evident to all who lived and worked in the border community. The 
associated criminal activity that accompanies an uncontrolled border 
was of great concern: Border violence, and drug and alien smuggling 
were taking their toll on urban and rural border residents. Farmers, 
ranchers and the local community were complaining of increased numbers 
of illegal aliens transiting their lands. Border communities, such as 
Brownsville, Texas, were increasingly alarmed, and faced with an 
atmosphere of swelling violence, which was degrading their quality of 
life. Local police were receiving numerous calls relating to illegal 
entrants committing petty and serious offenses in Brownsville on a 
daily basis. Fiscal year 1997 was a peak year for McAllen Sector in 
apprehensions, as we arrested nearly 245,000 illegal aliens.
    In August of 1997, McAllen Sector initiated Operation Rio Grande as 
a part of the Border Patrol's national strategy to control our nation's 
borders. McAllen Sector was prioritized in Phase II of the national 
strategy, after Phase I operations involving El Paso's Operation Hold 
the Line, San Diego's Operation Gatekeeper, were shown to have a 
significant effect on illegal migration along the El Paso and San Diego 
corridors. In keeping with our national strategy, the concept of the 
operation was to forward deploy our agent staffing and tactical 
infrastructure resources along the immediate border area, the Rio 
Grande River, to prevent and deter the illegal entry and smuggling of 
aliens into the United States at the border itself.
    Our operational manpower was increased from 701 agents to the 
present levels, as the national strategy has progressed. Tactical 
infrastructure such as portable and permanent lighting structures, sky-
watch observation platforms, infrared cameras, boats, fingerprinting 
technology to measure recidivism and detect wanted criminals, night 
vision equipment, newer aircraft and other equipment was purchased and 
assigned to the sector. In essence, the new mindset and way of doing 
business was fostered in line with the national strategy and McAllen 
went from an apprehension-based strategy to a strategy that promoted 
control through prevention and deterrence.
    Our efforts have been very successful, with decreases in 
apprehensions and illegal entries since Operation Rio Grande began. I 
am proud to say that in Fiscal year 2002 we apprehended 89,928 illegal 
entrants in the McAllen Sector. Although this is still a tremendous 
workload, there are now significantly fewer arrests, due to the focused 
strategy of Operation Rio Grande and the efforts put forth by our 
dedicated men and women. Through it all, McAllen Sector has maintained 
and encouraged a positive relationship with area ranchers, farmers and 
the local community. The crime rate along the southern corridor of the 
McAllen Sector paralleled the decline in apprehensions. The crime rate 
in places like Brownsville, Texas has decreased, and the safety for our 
officers and the local population has dramatically improved. The 
overall quality of life was better due to enhanced enforcement by our 
agents.
    Remotely monitored sensing devices have been placed along smuggling 
routes leading away from the Rio Grande to monitor the movement of 
persons trying to illegally enter the United States. Mobile observation 
platforms called ``Sky-Watch'' towers, platforms that extend twenty 
feet into the air and are used to watch large portions of the river, 
have been placed at strategic locations along the river. Remote Video 
Surveillance Systems have also been placed at twenty-nine strategic 
locations along the river. These systems have both day and night 
cameras and are monitored twenty-four hours a day, seven days a week 
for any illegal activity. A Boat Patrol was established in February of 
1998 to detect and deter illegal activity, as well as to gather 
intelligence along the river. Twenty-six specially trained K-9 teams 
have been permanently stationed at our two permanent traffic 
checkpoints.
    Building on longstanding public safety and humanitarian measures 
practiced by the U.S. Border Patrol, we have implemented initiatives to 
increase border safety within the McAllen Sector and have taken steps 
to enhance our levels of preparedness. Over the past several years, 
unscrupulous alien smugglers have moved migrants into more remote areas 
with hazardous terrain and extreme conditions. As smuggling tactics and 
patterns have shifted, our strategy has been flexible enough to meet 
the challenges head on. The Sector's Special Response Team (SRT) and 
Border Patrol's Search, Trauma and Rescue Teams (BORSTAR) have received 
training in search and rescue, and Border Patrol Emergency Medical 
Technicians (EMT's) have been placed in each Station. At the present 
time there are 44 trained EMT's in the Sector.
    The Boat Patrol was established by the McAllen Sector as a border 
safety tool and as a deterrent to prevent illegal aliens from entering 
into the United States. The Boat Patrol has deterred the entry of 
thousands of illegal aliens within our sector. Furthermore, the patrols 
have served as a Border Safety tool by rescuing hundreds of potential 
drowning victims, many of which were abandoned by smugglers. The Boat 
Patrol has become an integral part of our every day operations. We have 
enhanced our Air Operations to increase aerial vigilance in remote 
areas in our efforts to prevent alien deaths directly attributable to 
the high heat and limited water sources in remote South Texas.
    The McAllen Sector Public Awareness Program is a proactive network 
of contacts that aggressively facilitates the dissemination of 
information. Working with local Television, Radio and Newspaper 
agencies, we have developed and delivered public service announcements 
and advertisement campaigns to increase public safety awareness and to 
educate the public regarding our mission, which has benefited our law 
enforcement efforts throughout the region.
    The McAllen Sector maintains three 24-hour checkpoint operations in 
the sector, which are strategically located to prevent and disrupt 
alien and narcotic smuggling. Border Patrol Checkpoints are an integral 
part of Border Protection measures. Their strategic placement and 
operation provides increased control and deterrence at the border. The 
presence of a Checkpoint forces smugglers and illegal entrants to 
change their entry and travel patterns to border cities and away from 
the border. Sustained border enforcement presence, supported by 
Checkpoints that screen traffic traveling away from the border, adds an 
additional level of security nationally. It is of utmost importance to 
note that operations conducted at these checkpoints are not based upon 
authority similar to border inspections at ports of entry, with regard 
to searches and seizures, but are exercised based upon authority 
granted from Supreme Court decisions. Current case law also supports 
operating checkpoints in the same location to assure maximum law 
enforcement benefit while protecting 4th amendment guarantees.
    Even though Border Patrol Agents have the authority under Section 
287 (a) (3) of the INA to ``board and search'' any vessel, railway car, 
aircraft, conveyance or vehicle within a reasonable distance from any 
external boundary or border for aliens, agents must still have probable 
cause in order to conduct a search for contraband as outlined in 
Almeida-Sanchez v. U.S., 413 U.S. 266 (1973).
    In U.S. v. Brignoni-Ponce, 422 U.S. 873 (1975), the court held that 
``officers on a roving patrol may stop vehicles only if they are aware 
of specific articulate facts, together with rational inferences from 
those facts, that warrant reasonable suspicion that the vehicle 
contains aliens who may be illegally in the country.''
    In both Almeida-Sanchez v. U.S. and U.S. v. Brignoni-Ponce, the 
court held that ``no act of Congress can authorize a violation of the 
constitutional protection against unreasonable searches and seizures.'' 
Border Patrol agents are required to skillfully and prudently exercise 
the authority granted to them, balancing the standards between 
reasonable proof and probable cause during detainment and questioning 
of undocumented aliens, vehicle stops, and searches and seizures.
    The challenges we face with existing infrastructure at our 
checkpoints will continue to be addressed in an effort to update, 
expand and modernize, and we will continue to work diligently under the 
limitations that now exist. With an ever-increasing volume of traffic, 
agents in the McAllen Sector have mere seconds to conduct immigration 
checks, and to decide if probable cause exits to warrant additional 
inspection.
    The McAllen Border Patrol Sector continues to help lead the way in 
an effort to increase border security, and curb illegal alien and drug 
smuggling along the southwest border. In fiscal year 2002, McAllen 
Sector apprehended 89,927 undocumented aliens. Of those apprehensions, 
11,339 were of persons whose nationality was other than Mexican (OTM). 
The sector also made arrests in 1,382 alien smuggling cases, involving 
1,610 alien smugglers and 7,558 smuggled aliens. During fiscal year 
2003 (through May), the Sector has apprehended a total of 50,744 
undocumented aliens, of which 8,910 were OTMs. During this time, the 
sector has also made arrests in 1,233 alien smuggling cases, involving 
1,462 alien smugglers and 5,468 smuggled aliens.
    McAllen Sector is also among the leaders on the Southwest border in 
narcotics cases. In Fiscal Year 2002, the sector made 1,692 narcotic 
seizures, including 1,492 seizures of marijuana totaling 334,630 
pounds, 10 seizures of heroin totaling 125 pounds, and 171 seizures of 
cocaine totaling 6,902 pounds. During Fiscal Year 2003 (through May), 
the sector has recorded a total of 1,151 cases, including 1,008 
seizures of marijuana totaling 210,644 pounds, 8 seizures of heroin 
totaling 86 pounds, and 89 seizures of cocaine totaling 4,200 pounds.
    Not only does the Border Patrol provide a significant law 
enforcement presence in the region, we are also recognized as a major 
source of information and intelligence. Our Sector Intelligence Unit is 
recognized as a major source of information regarding Special Interest 
Aliens in the Lower Rio Grande Valley of Texas. Recognizing that border 
security cannot be a singular effort, but a collaborative, multi-agency 
effort; we coordinate our efforts, disseminate information, and share 
intelligence with other federal, state and local law enforcement 
agencies, strengthening the cord of better enforcement, better 
intelligence and better security.
    Nationally, the Border Patrol is tasked with a very complex, 
sensitive, and difficult job, which historically has presented immense 
challenges, and for which we have been given 100% responsibility. Since 
March 1, 2003, the U.S. Border Patrol has been a part of the newly 
established Bureau of Customs and Border Protection within the 
Department of Homeland Security. The Border Patrol is proud to be the 
``front line'' of defense for this very important mission. The 
challenge is huge, but one which we face every day with resolve and 
dedication. Together with our new partners, we are standing ``shoulder 
to shoulder,'' to present ``one face'' at the border.
    I would like to thank the Committee for the opportunity to present 
this testimony today, and I would be pleased to respond to any 
questions that the Committee may have at this time.

    Mr. Hostettler. Agent Homan.

 STATEMENT OF TOM HOMAN, INTERIM RESIDENT AGENT IN CHARGE, SAN 
  ANTONIO, TX, BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Homan. Mr. Chairman, and Members of the Committee, 
thank you for the opportunity today to address you regarding 
the efforts of the Bureau of Immigration and Customs 
Enforcement, known as BICE to combat the smuggling of illegal 
aliens into the United States.
    I am the associate special agent in charge in San Antonio, 
TX and recently assisted in the investigation into the deaths 
of 19 smuggled aliens in Victoria, TX. I am pleased to have the 
opportunity to share my experience and knowledge with you 
regarding this important issue.
    Specifically, I am here to testify regarding alien 
smuggling and human trafficking, which includes smuggling 
related deaths, juvenile smuggling and trafficking, roles and 
the effects of organized crime, and the nexus with terrorism.
    The creation of the new Department of Homeland Security, 
and specifically BICE, combined legal authorities, 
investigative tools to effectively combat organized human 
smuggling and trafficking by investigating and prosecuting 
criminal organizations involved in smuggling and harboring of 
aliens, money laundering, racketeering violations, human 
trafficking and child forced labor provisions.
    In addition, the new BICE structure provides a more 
effective means of dismantling, disrupting the criminal 
activities of those organizations. With tools such as financial 
data, analysis, telecommunication intercepts, and air and 
marine interdiction capabilities.
    I would like to begin by providing an important 
clarification, a necessary distinction between the terms of 
alien smuggling and human trafficking. Alien smuggling and 
human trafficking, while sharing certain elements are different 
offenses. In some respects, human trafficking may be regarded 
simply as an aggravated form of alien smuggling.
    Human trafficking involves force, fraud or coercion, and it 
occurs for the purpose of force labor or commercial sexual 
exploitation. Alien smuggling is an enterprise that produces 
short-term profits based on migrants smuggled.
    Trafficking enterprises rely on forced labor or commercial 
sexual exploitation of the victim to produce profits over the 
long term and the short term.
    Smugglees are willing to risk potential death seeking their 
dream and are normally free to seek it once they reach their 
final destination. On the other hand, we know that trafficking 
victims find themselves in a servitude arrangement that does 
not end once they have reached their final destination.
    Human smuggling has become an international lucrative 
criminal market in the United States. This trade generates an 
enormous amount of money, globally an estimated $9.5 billion 
per year. The commodities involved in this trade are men, 
women, and children, coming from as far away as China, Ukraine 
and Thailand.
    The trafficker's goal, like the smuggler is to maximize 
profits. The U.S. Department of State has estimated that at any 
given time, there are hundreds of thousands of people in the 
smuggling pipeline being warehoused by smugglers, and their 
primary target is the United States.
    In recent years, there has been a surge in smugglers trying 
to smuggle juveniles into the United States. Smuggled children 
are often lured by promises of education, a new skill or a good 
job, other children are kidnapped outright, taken from their 
home villages or towns and brought and sold as commodities.
    Attracted by enormous profits and minimal risk, criminal 
organizations at all levels of sophistication are involved in 
the trafficking of children as human cargo across international 
borders for sexual exploitation and forced labor.
    BICE is developing a foreign and domestic strategy which 
includes the implementation of critical incident response 
teams. The purpose of these investigative teams is simple and 
effective. Beginning the investigation of a critical incident 
as quickly as possible, and assembling the broad spectrum of 
technical and subject matter expertise that is needed to solve 
the complex investigations.
    These teams will consistent of special agents drawn from 
BICE assets who possess specialized skills in the full 
constellation of investigative techniques, language and 
cultural skills, crime scene management, technical operations 
and forensics.
    The national and international enforcement environment 
changed dramatically after September 11 attacks. BICE targets 
alien smuggling organizations that present threats to the 
national security. This emphasize recognizes that terrorists 
and their associates are likely to align themselves with 
specific alien smuggling networks to obtain undetected entry 
into the United States.
    As in our war on terrorism, the most effective means of 
addressing these issues is by attacking the problems at the 
source and transit countries, thereby preventing entry into the 
United States. The overarching BICE strategy requires 
intelligence-driven investigations against major violators, 
specifically targeting organizations with ties to countries 
that support terrorist organizations such as al-Qaeda.
    I brought along some images and video to illustrate the 
means and methods used by smuggling organizations, and how BICE 
is investigating these organizations.
    San Antonio and Houston started an investigation 2 years 
ago called Operation Night Riders where we actually opened up 
our own load house. It was an undercover operation 
proprietorship case.
    What you see there on the right hand side of the screen, 
that is a smuggling house that we set up. On the left hand side 
of the screen with the arrow pointing to it, that was our 
listening post. The smuggling house was wired for video and 
sound through every room, inside and outside.
    This is another example to shoot it, the video cameras that 
we hid outside of the house and inside the house so we can see 
all of the aliens arriving at the house, and as they leave, and 
all of the communications inside the house were also monitored.
    Again, this is video cameras hidden inside the house. We 
have undercover agents acting as load house operators, and we 
actually contracted with 11 different alien smuggling 
organizations to bring their aliens to our load house. We will 
house those aliens. We will make arrangements to get them to 
our final destination. By doing this, we identified the guides, 
the drivers, the main smugglers, we identified where the alien 
was going, who is paying the fees, we identified the full alien 
smuggling organization.
    This is a picture of the listening post which was next 
door. We put it next door in case anything was to happen where 
we had quick response to the house. This clearly shows we had 
video cameras placed both outside and inside the house.
    We have total 24/7 surveillance inside and outside of that 
house. This is a short film that is going to show the arrival 
of aliens that just crossed the border near Laredo, TX. They 
were in the back of this pickup truck for 6 to 7 hours. This 
shows how the smugglers have no concern for the health and 
safety of the aliens. These aliens, as you will see, will 
unload the front of that pickup truck. That is not a super cab. 
And you will see how many aliens come out of the front behind 
the front seat, and also how many come rolling out of the bed 
of that truck like sardines.
    Again, they have been in this position for several hours. 
You are going to notice some of the aliens as they get out of 
this vehicle have trouble walking because they were in this 
position for so long. The person unloading the truck is one of 
the defendants that was prosecuted and arrested.
    And as you can see this is during broad daylight. As the 
aliens get out of truck, they are going to enter the side 
fence. They enter the house through the back.
    As the aliens enter the house, the load house operator who 
was an undercover officer, records their name, and records what 
smuggling organization brought them to the house. Again, we had 
11 different organizations bringing aliens to this house.
    At a later time we would bring the aliens one at a time to 
the table. They would call their relatives, let them know they 
are safely in the United States, they need to wire the agreed 
amount per Western Union to our account, and then we would send 
them to their final destination.
    This is the typical way that alien smuggling organizations 
operate. They are subcontractors, subcontractor guides, 
subcontractor load house operators, subcontractor transporters.
    Now, you will see the target of the investigation open the 
back of the truck and they will start rolling out of the back 
of the truck, again having trouble walking, because they have 
been stuck in that position for 6 to 7 hours.
    The good thing about this investigation is we controlled 
the house. We made sure they ate well. We made sure their 
medical needs were taken care of. The aliens were moved down to 
their final destinations. And since we were the ones that 
talked to the relatives, recorded those conversations, we were 
later able to go to those destinations, pick those aliens up, 
take them into custody. And many have served as material 
witnesses in the prosecution of the 11 organizations.
    Mr. Hostettler. That is six out of the cab were from behind 
and six out of the bed in a pickup truck.
    Mr. Homan. Yes. Next screen, please. This is a load 
arriving at night. You see there are a lot of women and 
children in this load. There are babies in arms in this load. 
Again, callous disregard for their safety. They were bought in 
brought in the same arrangement. They are in the back of the 
pickup truck, in the bed of the pickup truck, stacked like cord 
wood. You can see this--they arrived 24/7. You can see a baby 
in arms. Many female aliens. They come in groups of 30 and 40 
out of two pickups.
    Next screen, please. And this is a group of smuggled 
Peruvians that came in that same night. This is just a quick 
shot of the inside of the house. At one point, we had over a 
100 smuggled aliens inside this house.
    Next screen. While we are waiting for the screen to load 
up, I can say that the undercover agents of this house were 
seasoned veterans of the legacy INS. Every room was, again, 
monitored, video, audio, we even had sensors put in the 
hallway. So we know when aliens were moving from one room to 
another. This is what I was explaining earlier. This alien is 
now meeting with our undercover agent. A contact will be made 
with his relatives saying he has arrived, he is in Houston at 
an undisclosed location. And their relatives or employer needs 
to wire money to our account, then we will send him to his 
final destination.
    Next screen, please. The result of this investigation, we 
totally dismantled 11 alien smuggling organizations. Twenty 
people were found guilty. Only one went to trial. With a case 
such as this, rather than attacking organizations one at a 
time, we become part of the organization, we open up our own 
load house, we can totally dismantle many organizations rather 
than just doing one. The downfall? It is expensive, it takes a 
lot of resources.
    If I can continue my testimony. Last month 19 undocumented 
aliens were found dead inside a tractor trailer in Victoria, 
TX. Four hours into their 300-mile trip to Houston oxygen ran 
out in their sealed trailer. Within 72 hours of the discovery, 
the collective efforts of special agents from BICE, our 
counterparts from Bureau of Customs and Border Protection, the 
Texas Department of Public Safety, the Victoria County District 
Attorney's Office, the United States Secret Service, and the 
Victoria County Sheriff's Office led to the identification and 
arrest of 40 defendants in Ohio and Texas. As of today, a total 
of 14 defendants have been charged with various crimes 
involving alien smuggling. The successes that we achieved in 
this operation are a direct result of fully integrating BICE 
special agents, other personnel and equipment in a unified law 
enforcement effort. Still, the smugglers remain undaunted by 
this tragedy. They continue to use railroad cars and tractor 
trailers to move illegal aliens to the south Texas smuggling 
corridor. BICE looks forward to working with the Committee in 
our efforts to save lives and secure our national interests. I 
hope my remarks today have been informative and helpful to each 
of you in understanding the complexity surrounding these 
issues.
    I thank you for inviting me to testify. I am happy to 
answer any questions you may have.
    Mr. Hostettler. Thank you, Agent Homan.
    [The prepared statement of Mr. Homan follows:]
                   Prepared Statement of Thomas Homan
    MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE, thank you for the 
opportunity today to address you regarding the efforts of the Bureau of 
Immigration and Customs Enforcement (BICE) to combat the smuggling of 
illegal aliens into the United States. I am the Interim Associate 
Special Agent in Charge in San Antonio, Texas and recently assisted in 
the investigation into the deaths of 19 smuggled aliens in Victoria, 
Texas. I am pleased to have the opportunity to share my experience and 
knowledge with you regarding this important issue. Specifically, I am 
here to testify regarding alien smuggling and human trafficking, which 
includes smuggling-related deaths, juvenile smuggling and trafficking, 
roles and effects of organized crime and the nexus with terrorism.
    The creation of the new Department of Homeland Security, and 
specifically BICE, combined legal authorities and investigative tools 
to effectively combat organized human smuggling and trafficking by 
investigating and prosecuting criminal organizations involved in 
smuggling, transporting, and harboring of aliens; money laundering; 
racketeering violations; human trafficking and child forced labor 
provisions. In addition, the new BICE structure provides a more 
effective means of dismantling and disrupting the criminal activities 
of these organizations, with tools such as financial and data analysis, 
telecommunication intercepts, and air and marine interdiction 
capabilities.
    I would like to begin by providing an important clarification and 
necessary distinction between the terms alien smuggling and human 
trafficking. Alien smuggling and human trafficking, while sharing 
certain elements and attributes and overlapping in some cases, are 
distinctively different offenses. In some respects, human trafficking 
may be regarded simply as an aggravated form of alien smuggling. Human 
trafficking, specifically what U.S. law defines as ``severe forms of 
trafficking in persons,'' involves (unless the victims are minors 
trafficked into sexual exploitation) force, fraud or coercion, and 
occurs for the purpose of forced labor or commercial sexual 
exploitation. Alien smuggling is an enterprise that produces short-term 
profits based on migrants smuggled. Trafficking enterprises rely on 
forced labor or commercial sexual exploitation of the victim to produce 
profits over the long-term and the short-term.
    Smugglees are willing to risk potential death seeking their dream 
and are normally free to seek it once they reach their final 
destination. On the other hand, we know that trafficking victims find 
themselves in a servitude arrangement that does not end once they have 
reached their final destination.
    Human smuggling has become an international lucrative criminal 
market and continues to do so in the United States. This trade 
generates an enormous amount of money--globally, an estimated $9.5 
billion per year. The commodities involved in this illicit trade are 
men, women, and children. Traffickers or smugglers transport 
undocumented migrants into the U.S. for work in licit, semi-illicit and 
illicit industries. The traffickers' foremost goal, like the smuggler, 
is to maximize profits. The sale and distribution of smuggled humans in 
the U.S. is a global, regional, and national phenomenon. Women and 
children are trafficked short distances within the U.S. (small towns to 
bigger cities), as well as coming from as far away as China, Ukraine 
and Thailand.
    The U.S. Department of State has estimated that at any given time, 
there are hundreds of thousands of people in the smuggling pipeline, 
being warehoused by smugglers, waiting for new routes to open up or 
documents to become available--and their primary target is the United 
States.
    While human trafficking cases have attracted media attention, the 
loss of life in an alien smuggling case is no less tragic. To 
illustrate the callous disregard smugglers have for human life I would 
like to provide you with the details of some tragic incidents involving 
deaths (noting that some of these smuggling cases may be trafficking 
cases as well):
    Iowa--In October 2002, 11 undocumented aliens were found dead in a 
covered grain car near Dennison, IA. It was determined that they had 
been smuggled and their bodies trapped in the grain car for four 
months. This is an ongoing investigation.
    Texas--Last month, 17 undocumented aliens were found dead inside a 
tractor-trailer in Victoria, Texas. Four hours into their 300-mile trip 
to Houston, oxygen ran out in their dark, sealed, hot, airless trailer. 
These aliens had beat their way through the trailer taillights in a 
desperate attempt to signal for help. Within 72 hours of the discovery, 
the collective efforts of Special Agents from BICE, our counterparts in 
the Bureau of Customs and Border Protection, the Texas Department of 
Public Safety, the Victoria County District Attorney's Office, the 
United States Secret Service, and the Victoria County Sheriff's Office, 
led to the identification and arrest of four defendants in Ohio and 
Texas. As of May 27, 2003, a total of twelve defendants have been 
charged with various crimes involving alien smuggling. The successes 
that we achieved in this operation are a direct result of fully 
integrating BICE special agents and other personnel, equipment and 
methodologies into a unified law enforcement effort. Still, the 
smugglers remain undaunted by the tragedy. They continue to use sealed 
railroad cars and tractor-trailers to move illegal aliens through the 
South Texas smuggling corridor.
    Washington--In January 2000, three undocumented aliens were found 
dead in the cargo container of a vessel in Seattle, WA. The three were 
part of a group of eighteen Chinese smuggled aliens that had been 
sealed in the container for a period of two weeks. The survivors, who 
were in dire medical condition, remained in the container with the 
deceased until their discovery.
    California--In March 2000, six undocumented aliens were found in 
the
    San Diego east county mountains, four of whom died due to 
hypothermia. The smugglers abandoned the group in the snowy mountains 
as the aliens pleaded not to be stranded.
    Florida--In December 2001, a capsized vessel was found in the 
Florida Straits, known to have been carrying 41 Cuban nationals, 
including women and children. All are believed to have perished at sea.
    New York--In June 1993, the Golden Venture, a vessel that had 
traveled 17,000 miles in 112 days from China, ran aground off the coast 
of Queens in New York City. The human cargo suffered subhuman living 
conditions during the voyage with inadequate food and ventilation. Most 
of the 286 people jumped into the frigid Atlantic Ocean, 10 of whom 
drowned.
    Arizona--In 2002, 133 deaths were recorded relating to alien 
smuggling loads in the Arizona deserts. The ICE Phoenix Special-Agent-
in-Charge is currently involved in an investigation in which as many as 
13 homicides have been attributed to alien smuggling. Several of the 
deceased were undocumented aliens who were unable to pay their 
smuggling fees. Local law enforcement agencies attribute most of the 
increase of violent crime, hostage taking, and home invasions in 
Arizona as being related to alien smuggling.
    As you can see, alien smuggling is not confined to any geographic 
region; it is a problem of national scope, which requires a coordinated 
national response. BICE is developing a foreign and domestic strategy, 
which includes the implementation of critical incident response teams. 
The purpose of these investigative teams is simple and effective: begin 
the investigation of a critical incident as quickly as possible, 
assembling the broad spectrum of technical and subject matter expertise 
that is needed to solve complex investigations.
    The teams will consist of Special Agents drawn from BICE assets who 
possess specialized skills in the full constellation of investigative 
techniques; language and cultural skills, land, air and maritime 
smuggling, crime scene management, technical operations and forensics. 
This investigative response will be coordinated at a proposed BICE 
Smuggling Coordination Center utilizing resources and equipment 
deployed in key geographic areas nationwide.
    In recent years there has been a surge in smugglers trying to 
smuggle juveniles into the United States. This increase is driven by 
the demand created by U.S. citizens wanting to illegally adopt children 
from abroad, immigrants attempting to reunite their families, and child 
exploitation. Mexican consulates in Southern Arizona alone handled more 
than 1,500 repatriations of unaccompanied Mexican juveniles during the 
first half of 2002.
    In contrast to the smuggling of family members, trafficked children 
are often lured by promises of education, a new skill or a good job; 
other children are kidnapped outright, taken from their home villages 
or towns and then bought and sold as commodities. Attracted by enormous 
profits and minimal risks, criminal organizations at all levels of 
sophistication are involved in the trafficking of children as human 
cargo across international borders for sexual exploitation and forced 
labor. The fall of communism, coupled with the deteriorating third 
world economies, has fueled the dramatic rise of this heinous form of 
commerce.
    International organized crime groups such as the Chinese Triads; 
Japanese Yakuza; Russian, Albanian, Georgian, Ukrainian, Polish, 
Nigerian, and Thai criminal networks have also capitalized on weak 
economies; corruption, and improved international transportation 
infrastructure in order to facilitate the smuggling and trafficking of 
some 700,000 to 2,000,000 people globally each year. These 
organizations have abandoned their historic ethnic alliances to join 
together in criminal enterprises and to hinder U.S. Government law 
enforcement efforts.
    The national and international enforcement environment changed 
significantly after the September 11 attacks. BICE places a significant 
emphasis on targeting alien smuggling organizations that present 
threats to national security. This emphasis recognizes that terrorists 
and their associates are likely to align themselves with specific alien 
smuggling networks to obtain undetected entry into the United States. 
In addition to the emerging terrorist threat, three factors have 
created an environment in which terrorists and smuggling enterprises 
may combine their criminal efforts to pose a significant national and 
international threat. These factors are:

        1)  The involved criminal organizations growing volume and 
        sophistication,

        2)  Their ability to exploit public corruption; and,

        3)  Lax immigration controls in source and transit countries.

    As in our war on terrorism, the most effective means of addressing 
these issues is by attacking the problem in source and transit 
countries thereby preventing entry into the United States. 
Consequently, BICE is developing a strategy that will address alien 
smuggling and human trafficking at the national and international 
levels. The overarching Anti-Smuggling/Human Trafficking Strategy 
requires intelligence-driven investigations against major violators, 
specifically targeting organizations with ties to countries that 
support terrorist organizations such as Al Queda.
    We look forward to working with this Committee in our efforts to 
save lives and secure our national interests. I hope my remarks today 
have been informative and helpful to each of you in understanding the 
complexity surrounding these issues. I thank you for inviting me to 
testify and I will be glad to answer any questions you may have at this 
time.

    Mr. Hostettler. The Chair now recognizes Mr. Nunez for your 
testimony.

 STATEMENT OF PETER K. NUNEZ, FORMER U.S. ATTORNEY, SAN DIEGO, 
                               CA

    Mr. Nunez. Mr. Chairman, Ranking Member Jackson Lee and 
other Members of the Committee, thank you for asking me to 
appear today. I am going to supplement the written statement 
that you already have in front of you with some remarks some of 
which I think are responsive to issues that have already been 
raised.
    I guess the place I would like to start is to recognize 
reality. The world is currently about 6.2 billion people, two-
thirds or three-quarters of whom live in the developing world, 
many of whom would love to come to the United States. It is not 
just Mexico we are talking about, although Mexico, obviously, 
is the gateway and the single-biggest contributor of immigrants 
to the United States. So when we start thinking about 
solutions, we have to look at this big picture that we are 
faced with, an ongoing, demographic onslaught from everywhere 
in the world, and we are one of the target countries, one of 
the preferred places for people to come to improve themselves. 
So whatever solutions we think of have to have that reality in 
mind.
    Secondly, we already have, if not the--certainly one of the 
most generous legal immigration policies in the world. We 
admit, and have admitted for every year for the last decade, a 
million people legally. That should be more than adequate to 
supply whatever needs our employers have. If not, there are 
provisions in the current immigration law for people to import 
labor if they can demonstrate the need. But instead, what many 
people do, the unscrupulous employers, is take advantage of 
illegal immigrants who are here by the millions, 8 million at 
the last count, probably more than that, from all over the 
world. And the reason why people prefer illegal immigrant 
workers is that they can exploit them. So we have to also keep 
in mind that we don't need illegal immigrants. That to me is 
absurd that someone would suggest we need illegal immigrants. 
If we need immigrants, if we need labor, then that is the 
purpose for which Congress has put in place an immigration 
policy, to handle legitimate needs for employers. But we should 
not mix the two up, legal and illegal immigration.
    Two things, basically two different parts of this formula. 
One is border control and certainly we must do better at that. 
We have made some improvements since the early 90's, and that 
certainly is a step in the right direction. It is a shame that 
we stopped increasing the Border Patrol in the late 90's. I 
don't know how many people it would take. I know Mr. King, I 
think, mentioned the number 20,000 Border Patrol agents, I 
don't know how many it would take. I don't think anybody knows 
at this point, but we know it takes more than that. So my 
suggestion is let's continue to build up the Border Patrol to 
the point where they can close the gaps, especially the places 
where people are in the most jeopardy. Let's extend Gatekeeper, 
let's extend Hold the Line, let's extend the Rio Grande project 
with more Border Patrolmen. Now, that is going to take time.
    So the question in the short run is, is there some other 
remedy that we should undertake or look at in the short run? 
Use of the military, is that something that should be 
considered in the short run if we want to stop death? If that 
is the highest priority, it seems to me that is something that 
should be considered.
    You know, we now have more FBI agents than we have Border 
Patrol agents. So I don't know, again, Mr. King, what number, 
what the magic number is either, but it seems to me whatever 
the number is required to do the job, that is the number we 
should aim at.
    And as a former prosecutor, I have dealt with all kinds of 
cases similar to the ones that have been described here today. 
The issue of what reward or what incentive should be given to 
people who assist is always a touchy one. I guess I should say 
that we should not expect that offering some sort of immunity 
or amnesty to people who inform on smugglers is going to end 
alien smuggling. I mean, we still have drug smugglers, we still 
have bank robberies, we still have people committing all kinds 
of other crimes, and we have a number of incentives available 
in those other areas of the law to promote or to incentivize 
people to come forward to help. This is a big money deal. It is 
big for everyone on all sides of the issue. So while we 
certainly should look at ways to improve the prosecution and 
investigation of these offenses, I don't think we should be so 
optimistic that we think that is going to stop or smash these 
alien smuggling rings. We haven't stopped drug traffickers by 
using some of these same devices.
    Thank you.
    Mr. Hostettler. Thank you Mr. Nunez.
    [The prepared statement of Mr. Nunez follows:]
                  Prepared Statement of Peter K. Nunez
    Thank you for inviting me to testify concerning ``The Deadly 
Consequences of Illegal Alien Smuggling.'' The tragic deaths involving 
the truck in Victoria, Texas, last month once again demonstrate the 
deadly consequences arising from the complete failure of our current 
immigration policy to deal with the chaos along our borders resulting 
from illegal immigration.
    My perspective on this issue is based on my experience over the 
past thirty years, first as a federal prosecutor in the U.S. Attorneys 
Office in San Diego, California, from 1972 to 1988, then as the 
Assistant Secretary for Enforcement at the Treasury Department from 
1990 to 1993, and as a person who has lived on the border for most of 
the past 40 years. I currently serve as a lecturer in the Political 
Science Department at the University of San Diego, where I teach 
courses in Transnational Crime and Terrorism, American Criminal 
Justice, and the Politics of Immigration Policy. Finally, I have been 
affiliated with a number of immigration reform organizations, and 
currently serve as the chairman of the board of directors for the 
Center for Immigration Studies here in Washington, D.C.
    Unfortunately, deaths along the border related to illegal alien 
smuggling are not a new phenomenon. It was not at all unusual for 
people to die trying to enter this country along our southern border 
during the sixteen years I served as a federal prosecutor in San Diego. 
Deaths due to exposure to the elements, to traffic accidents, and to 
the inhumane treatment received from smugglers were all too common even 
during the '70's and '80's. It has always been a matter of the highest 
priority for both the Border Patrol and the U.S. Attorneys offices 
along the border to investigate and prosecute cases where a death was 
involved. And I am aware of the extraordinary efforts that have been 
made over the past ten years--since the inception of Operation 
Gatekeeper in San Diego and Hold the Line in El Paso--by agencies of 
both the United States and Mexican governments, to warn would-be 
illegal aliens of the potential dangers they faced in trying to cross 
the border illegally through the deserts and mountains.
    Notwithstanding these efforts, deaths have continued to occur, and 
will continue as long as we fail to control our borders and as long as 
we cling to an outdated, failed, and disastrous immigration policy. 
Because if we try to find the cause of these deaths, and if we are 
trying to prevent them, then we need look no further then to the 
unwillingness of the United States to reform its immigration laws in 
light of the realities of the 21st Century.
    Clearly criminal responsibility for these deaths can be laid at the 
feet of the smugglers who left these poor people to die in the back of 
a truck. It can also be argued that the illegal aliens themselves are 
partly responsible for their own deaths, given their willingness to 
risk harm by entering this country illegally, in violation of our 
criminal laws. But the illegal aliens who attempt to enter this country 
by putting their lives at risk, and the smugglers who feed off the 
desperation of these people, are all reacting to a set of circumstances 
that act as both ``push'' and ``pull'' factors in stimulating the flow 
of immigrants from Mexico and the Third World to the United States. The 
plain fact is that the huge disparity in economic conditions between 
Mexico and the United States, as well as the abundant social services 
available to immigrants once they arrive here, will compel people to 
attempt the journey even in the face of danger and hardship.
    So until Mexico is willing and able to deal with the ``push'' 
factors that force millions of its citizens to seek a better life in 
the United Sates, and until the United States is willing to deal with 
the ``pull'' factors that lure millions of poor people here from around 
the world, we should expect that deaths among immigrants will continue 
to occur. These deaths are not ``caused'' by law enforcement or by 
efforts such as Gatekeeper and Hold the Line; the Border Patrol and the 
INS have been the scapegoats, told to enforce the law, but not given 
the resources needed to do the job correctly. What we need to do, at 
least along the border, is to expand Gatekeeper and Hold the Line to 
those trouble spots that now represent the biggest threats of illegal 
entry. Just as the Border Patrol was doubled in size during the early 
and mid-'90's to provide the resources needed in San Diego and El Paso, 
now we must add however many more Border Patrol agents are needed to 
close the remaining gaps.
    But ``border control'' alone will never be enough. What is needed 
is a comprehensive reform of our immigration policy designed to 
eliminate all of the perverse incentives that continue to draw illegal 
aliens to this country. If it is true that most immigrants--both legal 
and illegal--come to this country to work, then it is essential to 
finally enact an employer sanctions provision that works. Equally 
important, however, is the need to reestablish an effective interior 
enforcement mechanism designed to locate, arrest, and deport the 8 
million-plus illegal aliens now living in the United States. For 
nothing works as a better incentive for illegal aliens than the fact 
that they know that no one will bother them if they are able to reach 
the interior of the United States.
    Beginning in the late 1980's, INS began retreating from their 
historical and statutory mandate to locate, arrest, and deport those 
illegal aliens who managed to evade the Border Patrol or INS inspectors 
at our ports of entry, and those non-immigrants who originally entered 
legally but who overstayed their visas. This abdication of the interior 
enforcement function escalated during the '90's, and has all but 
disappeared in the current environment. Only the horrors of 9/11 have 
resulted in any effective interior enforcement, and that is aimed 
solely at potential terrorists.
    In fact, while the latest INS figures show a 75% increase in the 
deportation of Arabs and Muslims (FY 2002 compared to FY 2001), the 
same figures show an OVERALL DECREASE of 16% in the total number of 
deportations. In FY 2002, 28,833 fewer deportations took place than the 
preceding year; the biggest decline was among Mexicans, the single 
largest national group, which saw a decline of 32,692 illegal alien 
Mexicans.
    So if you were a poor Mexican living in Mexico, you would know that 
your chances of being caught crossing the border would be slight, and 
even if you were caught, nothing bad would happen to you. There would 
be no prosecution, and no other meaningful sanction to dissuade you 
from attempting to enter illegally. And you would also know that once 
you made it past the Border Patrol, you would essentially be home free, 
that no one would be looking for you after you arrived at your 
destination in the interior of the United States. And you would know 
that there would be jobs available for you, even if you might be 
cheated by your employer, that there would be some level of free 
medical care for you and your family, free public education for your 
children, and perhaps even some additional benefits for you and yours, 
all at the expense of the American taxpayer.
    Some states are also offering additional benefits for illegal 
aliens. To make it easier for you to survive once you are here, some 
states will allow you to get a genuine government ID card in the form 
of a drivers license, which you can then use to obtain other indicia of 
legality that will allow you to burrow deeper into the fabric of 
America.
    And to make sure that you aren't bothered, various state and local 
governments have adopted policies that prevent state and local police 
from participating in the effort to locate, arrest, and deport these 
criminals, or of even cooperating with INS and the Border Patrol.
    And in order to help American banks to make a profit, the Treasury 
Department has authorized financial institutions to accept as valid 
proof of identity documents such as the matricula consular, which will 
enable illegal aliens to open bank accounts so they can more 
conveniently send home to Mexico their share of the roughly $10 Billion 
in remittances that flows south every year, which, indeed, explains the 
zeal with which the Mexican government endorses and encourages its 
citizens to break our laws by sneaking across the border illegally.
    And what to make of the various other agencies of the federal 
government that act in ways to make enforcement of our immigration laws 
more difficult, that act in ways designed to subvert the 
responsibilities of those assigned the task of enforcing our 
immigration laws. We already know about the disconnects that exist(ed?) 
between the State Department, the FBI, the CIA, and INS prior to 9/11 
that prevented INS from even attempting to do its job properly. But 
what about the more mundane business of the federal government, where 
the Social Security Administration does nothing about the bogus-on-its-
face information it receives from employers demonstrating phony social 
security account numbers, the failure of IRS and the Labor Department 
to lift a finger to share information with INS that could be used to 
identify illegal aliens and lead to their arrest and removal. How many 
federal governments do we have? Why are not all agencies of the 
government cooperating to assist INS in performing its duty, all of 
which makes it infinitely easier for illegal aliens to avoid detection 
and remain here for decades?
    And we need to stop the talk of a coming amnesty, or of a guest 
worker program, both of which, by themselves, serve to encourage 
additional illegal immigration. What kind of message are we sending 
when we dangle that possibility before people desperate enough to put 
their lives at risk? Doesn't this kind of talk also indicate that we 
really don't care much about law breaking, that we don't really care 
that much about the rule of law that these immigration laws exist only 
as a token objection to the violation of our sovereignty?
    And finally, if you are able to avoid detection long enough, your 
children will be allowed to enter a state college or university and pay 
in-state tuition, unlike other law-abiding American citizens from out 
of state who must pay a significantly higher amount.
    Soon after 9/11, Attorney General Ashcroft quite appropriately 
suggested that he wanted the state and local law enforcement 
communities to assist the federal government in locating suspected 
terrorists, all of whom, almost by definition, are here as immigrants 
or non-immigrant guests. Somehow, then, we expect state and local law 
enforcement to be able to distinguish between illegal aliens who might 
be terrorists and illegal aliens who are only criminals because they 
broke some other American law. At about the same time, the federal law 
enforcement agencies began to round up illegal aliens who were from the 
Middle East or who were Arabs, but not those from anywhere else in the 
world. Law enforcement also began to locate, arrest, and deport illegal 
aliens if they worked at airports or other high security locations, but 
not of they worked in some other sector of the economy. We also became 
concerned about those illegal aliens that worked at our military bases, 
such as the U.S. Navy Submarine Base in San Diego, but not those 
working outside the base. We even arrested and deported those illegal 
aliens who had the misfortune of working as limo drivers for the NFL 
Super Bowl held in San Diego this past January. But all other illegal 
aliens--most of the 8 million-plus who are here--have nothing to fear, 
because no one cares that they are here, and no one is doing anything 
about it. If that is not an incentive for illegal immigration, nothing 
is.
    One last point about deaths relating to illegal immigration. We 
should be as concerned about the deaths (and other violent crimes) 
caused BY illegal aliens as we are about the deaths of illegal aliens 
that occur during the course of their own volitional acts of illegally 
entering this country.
    On June 13 of this year, Oceanside Police Department officer Tony 
Zeppetella, age 27, was gunned down and executed by one Adrian Camacho, 
described as ``an Oceanside gang member with a history of violence and 
drugs.'' (San Diego Union-Tribune, June 20,2003) What the news article 
does not report is that the defendant has been convicted on numerous 
felonies, and has previously been deported as an illegal alien! Too bad 
the Oceanside Police Department and the San Diego County Sheriff's 
Office were not interested in illegal aliens. Too bad that the INS in 
San Diego does not have an effective program designed to locate, 
arrest, and deport illegal aliens. Maybe if they did, Officer 
Zeppetella's widow and six-month-old child would not be suffering today 
over their loss.
    Or take the recent case from Northern California involving the 
kidnapping (and who knows what else) of a 9-year-old girl, who, 
thankfully, survived her ordeal. Her kidnapper? Another illegal alien, 
who was able to hide in plain sight, due in part to the policy of the 
San Jose Police Department to look the other way with regard to 
immigration violators. And of course the INS has no program to fulfill 
its statutory duty to locate, arrest, and deport illegal aliens.
    So as we mourn the deaths of those who voluntarily decided to break 
our criminal law by entering this country illegally, let's also save a 
little compassion for those who become the victims of illegal aliens, 
with the full complicity of the federal government and state and local 
law enforcement agencies that have decided to look the other way.
    The bottom line is that this Congress has to end the chaos of our 
past and present immigration policy, and put in place serious reform 
efforts that will enhance the ability of the new INS to do its job. We 
must, as a country, stop sending a mixed message to the downtrodden of 
the world that we will leave you alone if you have the courage and the 
ingenuity to make it past our borders. The federal government must use 
all of its resources to attack this problem comprehensively. The state 
and local governments must be brought into the effort, and any and all 
incentives dangled by state and local governments must be ended. Only 
by turning off the magnets that provoke this lawlessness can we ever 
stop the chaos at the borders that results, unfortunately, in the loss 
of life.

    Mr. Hostettler. Ms. Jimenez.

 STATEMENT OF MARIA JIMENEZ, CHAIR, MAYOR'S ADVISORY COMMITTEE 
   FOR THE OFFICE OF IMMIGRANT AND REFUGEE AFFAIRS, CITY OF 
                          HOUSTON, TX

    Ms. Jimenez. I would thank the Committee for the 
opportunity to address you, and particularly Congresswoman 
Sheila Jackson Lee, who made an effort that we be here to 
articulate the perspectives of immigrant communities in the 
United States and the problem of commercial enterprises that 
are contracted in order to enter this country without 
Government authorization.
    As I have stated in the written testimony, immigrant 
communities throughout this country are very well aware of the 
risks of crossing the border. Death has been part of the 
experience throughout decades in the journey to the United 
States. It was part of what the Irish experienced, it was part 
of what is experienced in the Caribbean, and it is part of what 
people experience crossing the U.S.-Mexico border. They have 
become more numerous as it has become more difficult to enter 
legally, and as well as fortification has made necessary the 
use of smugglers, where 10 years ago--and those are studies by 
Douglas Massey at the University of Pennsylvania--10 years ago, 
persons walked in alone. Now, given the fortification of the 
border, this has consolidated multinational, multibillion 
business operations to have people come into the country.
    The house that we saw, it is very common in immigrant 
communities. We know of them. We know of the people who, when 
persons reach their destination, are quickly let call the 
relatives, and then people are freed within a matter of hours 
as they pay the sums required by the smugglers. Occasionally, 
there are those who kidnap and engage in other activities. But 
it is usually, again, known throughout the community and those 
type of enterprises are no longer accessed.
    The different risks involved in these operations are well 
known in immigrant communities. Immigrant communities also know 
where to access people who can cross a person safely into the 
United States. The fact that we have millions of people who 
have done so are testimony to that. The recent study by the 
University of Houston in which Salvadoran immigrants were 
questioned, for instance, showed that in order to cross women, 
who are not authorized by the government to cross, Salvadoran 
families access known people who engaged in these enterprises 
who guarantee safety for women as they cross the border.
    So one of the things that I think you have to understand is 
that, from the immigrant perspective, these type of enterprises 
are a necessary evil given the limited options of crossing 
legally into the United States. I often refer to my own 
personal experience, my grandfather when he crossed in 1912, 
went to the bridge and in the State of Coahuila, simply paid a 
nickel in crossing over. He crossed legally. My father sits 
watching television and he says, ``I don't understand it.'' he 
said, ``Why don't people--the United States Government just 
require that people pay $1,000. It would go to the U.S. 
Treasury instead of going to the smugglers.'' that is, there is 
a real essence here in understanding that people know of these 
commercial operations, access them, and understand the risks 
that are undertaken. But the risks that people know of are 
minimum to the need to migrate and to search for the well-being 
of themselves and their family.
    Now, we believe that the human costs of migration can be 
reduced by expanding and making more flexible avenues for legal 
migration. In no means are we calling for open borders. We 
understand, as international law so describes, that nations 
have the sovereign right to determine who enters and stays and 
under what conditions people are made members of a society. But 
we believe that, especially in the relationship to Mexico, 
there is a very true need to look at ways that people can 
migrate legally, and that is a matter that will definitely put 
a tremendous dent on these operations and the need for people 
to access them.
    We also believe, in our experience, that the human cost of 
migration can be reduced by developing provisions to encourage 
persons to come forward. I gave a specific example, 2 years 
ago. I had a family, three members from a small town in Mexico 
had died in a railroad car near Victoria, TX. And I went to the 
apartment house where the family member lived, where many of 
the townspeople lived, and no one wanted to come forward, 
simply because the person who brought them over belonged to the 
town, and people were unwilling to risk their safety in order 
to turn this person in. So how can we provide mechanisms that 
will provide an incentive and at the same time be able to ask 
people to come forward, and hold accountable those commercial 
enterprises that do not deliver the services as contracted, as 
understood by the community.
    The human cost also of these illicit commercial enterprises 
can be reduced by increasing public education as to the 
penalties, especially the fact that people can receive the 
death penalty when these operations go wrong. I think that 
many--in the case of immigrant communities, many people have 
been doing this for decades. And many, as I have stated in the 
example before, are from small towns. So there isn't an 
understanding that there are serious liabilities. And this may 
also dissuade people from engaging in them in terms of entering 
into the probability of these commercial enterprises.
    In sum, this is our testimony, and, again, we thank the 
Committee. And we hope that this will be the beginning of a 
dialogue to look at ways that we can bring sense to our 
immigration policy in making it more congruent with the reality 
of integrated international economy.
    Mr. Hostettler. Thank you, Ms. Jimenez.
    [The prepared statement of Ms. Jimenez follows:]
                 Prepared Statement of Maria D. Jimenez
    My name is Maria D. Jimenez. I am currently Chair of the Mayor's 
Advisory Committee for the Office of Immigrant and Refugee Affairs of 
the City of Houston. Houston is the fourth largest city in the nation; 
twenty-eight percent of its population is foreign-born. I myself am an 
immigrant from Mexico and a naturalized citizen of this nation for the 
last thirty-four years. I now live and work in one of the oldest 
Mexican immigrant neighborhoods in the city.
    In my professional life, I have worked with many community-based 
organizations in documenting human and civil rights violations in the 
enforcement of immigration law in border areas and other immigrant 
communities in the last sixteen years. In my current capacity as a 
human rights consultant, I am working with several non-profit 
organizations on establishing human rights training programs for 
targeted immigrant population groups in Houston, Texas.
    Both professionally and personally, I have interacted with 
immigrant and refugees who have survived and been victimized commercial 
enterprises that move them across the border without government 
authorization.
 From these experiences, the following conclusions may be drawn:
             The risks of crossing the border without documentation are 
                    well known in immigrant communities.
    Jesus Galvan first entered the United States from Mexico as a 
bracero or guest worker in the early 1950's. At the end of this 
program, he continued crossing, but without documentation to work in 
agriculture in Arizona and later, in light manufacturing in Los Angeles 
and Houston. He became a permanent resident during the legalization 
program authorized by the Immigration Reform and Control Act of 1986. 
He became a US citizen in 1997.
    In the course of his travels to and from his native Colima, he 
narrates stories of death and injuring in a perilous journey to evade 
immigration authorities. He talks about the death of a cousin who 
traveled with him in the late fifties and of the dangers of sleeping 
night at night in rattlesnake infested fields. He has known of many 
incidents of bodies spotted on route to destinations of work or 
settlement. It was no surprise to Mr. Galvan when the University of 
Houston's Center for Immigration Studies on ``Death at the US/Mexico 
Border'' in March of 1997 released its studies of deaths of migrants 
crossing the US-Mexico border. He, like many others from sending 
communities in countries in Central America and Mexico, can attest to 
friends, family members and other migrants dying as they move 
clandestinely to worksites and hopes of providing a better life for 
themselves and their families.
    He, like many others, can attest to groups being left by ``guides'' 
to wander on their own. He, like many others, can attest to family 
members, friends or neighbors held captive until they paid smugglers 
for their release. He, like many others, can attest to family members, 
friends or neighbors who have never again been heard from once they 
started on route to join family or to seek employment. He, like many 
others, relate the to numerous incidents of deaths, kidnappings, rapes 
and other violations of human rights and dignity now frequently 
reported on the myriad of Spanish-speaking media, and now more 
frequently, by English-speaking media. It is a phenomenon integral to 
the clandestine movement of persons across international borders. It is 
a fact of life for many immigrant communities throughout the United 
States.
             The networks of persons who can cross persons without 
                    government inspections are known and accessed by 
                    immigrant communities.
    Persons who transport those unable to enter with government 
authority are known in immigrant communities in the United States, on 
the border and in hometowns. Some are relatives or other townspeople. 
Others are individuals who will provide this service on recommendations 
of previous customers. Some are offering their services in particular 
places in border towns. Some are linked to legitimate businesses like 
immigrant transport companies. Some are tied in to other illicit 
businesses like the drug trade or organized crime. All have grown, 
flourished and consolidated as avenues for legal migration reduced due 
to changes in law and border enforcement resources and strategies 
increased and received impetus by the policy decisions to stop 
undocumented migration in the last decade.
    Andrea Delgado, a legal immigrant in Houston, heard from others in 
the neighborhood of a group of coyotes or smugglers in Brownsville that 
could cross her 42-year-old brother from Hidalgo, Mexico; he was 
finding it increasingly difficult to support his wife and five 
children. She contracted their services and told her brother to wait 
for the contact at the bus station in Matamoros. Her brother called her 
in Houston as soon as he arrived; he told her he carried the four 
hundred dollars she had sent him to pay the smugglers.
    This was November 1988; to date the Delgado family has made 
extraordinary efforts to find an answer to their brother's whereabouts 
both in the United States and in Mexico. They have spent an astonishing 
amount of time and money to attempt to locate him in the Rio Grande 
Valley. Throughout the years, they have paid lawyers and investigators 
who called them to say that reports of their brother/son have been 
spotted. They have met with numerous laws enforcement officials on both 
sides of the border and none has taken them seriously, even when they 
filed complaints containing the addresses of the remaining members of 
the smuggling ring. In 1993, a few of the leaders of the smuggling 
operation were jailed for drug trafficking. On many occasions, the 
family and/or Andrea have been threatened by the smugglers for 
continuing their search.
    Yet many immigrants contract persons who can safely transport 
family members. Amelia Perez needed her son to be with her after she 
found stability in selling cosmetic products in Houston. She traveled 
to the border and made sure the smuggler would be one to transport her 
son in a vehicle and not walk him through the dry desert lands. She 
found one that immigrant networks in Houston said was tied into 
``immigration authorities who looked the other way.'' Her son arrived 
safely and now works in a trucking company on the docks of the ship 
channel.
    For many in immigrant communities, the necessity of finding a 
decent life for themselves and their families, joining family members 
already in the country and/or escaping political repression makes 
crossing the border an enterprise that is fundamental to their survival 
as human beings. Risks and hardships are possible, but in general, most 
understand that smugglers are businessmen and few expect to come across 
those that may fail to meet the terms of service as contracted. They 
have the experience of family, friends and communities that reinforce 
that most clandestine crossings are safe; the risks are less than the 
want and suffering at home.
 The factors driving people to migrate in these conditions outweigh 
        known risks and costs in immigrant communities.
    Agapito Jaime is a permanent resident who works on remodeling 
homes. Many in his hometown now live and work in Houston. In 2000, 
three young men on their way to join other townspeople died in a locked 
railroad car near Victoria, Texas, the city of the recent, tragic 
incident in which 19 immigrants lost their lives. Families of the town 
were unwilling to cooperate with the police; they knew the smuggler who 
had locked them in and was responsible for their death and dehydration. 
They feared coming forward; they feared for their safety and those of 
the families back home. Others acted to protect the smuggler from 
prosecution.
    No one was ever brought to justice. It simply became another story 
of the town immigrants. All knew that they must continue to migrate and 
simply accepted the incident as another story of the townspeople. It is 
simply explained as a trip that went bad.
 From these experiences, the following recommendations are placed for 
        your consideration:
             The human costs of migration can be reduced by expanding 
                    and making more flexible avenues for legal 
                    migration.
    The orderly migration of persons and financial disincentives for 
clandestine operations can be achieved by expanding and making more 
flexible laws that ensure legal migration. People would not migrate 
illegally if the could do so legally. The adoption of measures that 
coincides with the reality of the movement of people in an ever, 
interlocking global economy has to be made congruent. An overhaul of 
our immigration laws to give that congruency is urgently needed. A few 
important aspects are: (1)a legalization program that can grant 
permanent residency of those already here without government 
permission; (2) changing those aspects of current law that impede the 
adjustment of status creating obstacles to legalization; (3) permitting 
individual waivers for transgressions; (4) a temporary program for 
workers that guarantee a workers choice of employer, fair employment 
protections, labor rights and options of permanent residency; and 
(5)finally increases in allocation of resources for expediting legal 
migration and family reunification petitions.
             The human costs of migration can be reduced by developing 
                    provisions to encourage persons to come forward and 
                    assist in the investigation and prosecution of 
                    human commercial smuggling enterprises.
    A safe space for persons who are victims of commercial smuggling 
operations that endanger lives has to be created by legal measures to 
protect persons and their families, who come forward with information 
and/or as witnesses. Working permits leading to permanent residency 
will increase the stakes for immigrants who otherwise feel that they 
gain little by not informing authorities of these situations, 
especially if they know these are tied to larger, criminal activities. 
Visas to allow families to also join their loved ones and be protected 
from harm are also important. Working will give the incentive to await 
the long period required by the investigation and prosecution of those 
involved in these criminal enterprises.
             The human costs of these illicit commercial enterprises 
                    can be reduced by increasing public education of 
                    the penalties for death and injury of persons 
                    transported by under these circumstances.
    The multi-billion dollar enterprises that profit from the 
clandestine movement of human beings across international borders must 
be held accountable for placing persons who have contracted their 
services in danger. Anyone who engages in these activities must have 
clear knowledge that actions leading to death or serious injury is 
unacceptable and that these unlawful actions carry with them serious 
penal consequences. Many town ``guides'' to ``coyotes'' have operated 
relatively unencumbered by law enforcement consequences for decades. 
Heavier penalties for the serious injury or death of those in transport 
need to be publicize to dissuade persons from engaging in crossing 
human beings illegally and/or placing their lives at risk. Knowing the 
degree of punishment may dissuade and prevent persons from engaging in 
this illicit activity or at least, to act more responsibly in carrying 
through on their services.
    In conclusion, persons take the risk of entering without government 
authority in the hopes of bettering their lives and those of their 
families. The choice to move for the opportunity of improving one's 
well-being in a stronger economy or a more open society is made by 
individuals responding to the driving forces of labor needs in an ever, 
integrating international economy. The shortcomings of current 
immigration law and policy that create obstacles to an orderly, safe 
and legal movement of people across international borders to resolve 
these labor market needs frame the context for increasing, the 
profitability for international commercial enterprises to move persons 
clandestinely across borders. In the equation, human life, rights and 
dignity are subordinated to profit. It is time to take the profit 
motive out of this illicit activity. It is time to provide legal 
alternatives of moving across international borders. It is time to 
reclaim life, dignity and rights for all persons.

    Mr. Hostettler. We now go to a round of questions for 5 
minutes. The Chair recognizes himself for 5 minutes.
    I would like to begin with you Mr. Nunez. You make an 
interesting point near the conclusion of your testimony, and 
you put this discussion into some context. And as the father of 
four, this is difficult for me to fathom this, the depth of 
this tragedy, but even more so the point that you make in that 
you point out that those that subject themselves and their 
families to this process, do so voluntarily. And that Mr. Homan 
made a distinction in his testimony between smuggling and human 
trafficking, in that human trafficking has elements of force 
and coercion that is not present, to a great extent, in 
smuggling. Is that not true? Is that not true that the 
individuals that put themselves this situation to be smuggled 
in the manner we saw in the film and in the manner that 
resulted in the tragedy in Victoria, TX recently, do so 
voluntarily.
    Mr. Nunez. Absolutely. They are desperate people, 
obviously. They are driven by various forces or attracted by 
various forces or both. They want to leave where they are, and 
they want to come here, but they make that calculation. It is a 
calculation. I think all of us, in one way or another, have 
recognized that the risk is known, it is voluntarily 
undertaken, but the volunteers, they certainly aren't hoping 
that something bad will happen to them in the process of it, 
but, yes, they volunteer, because they realize that if they can 
get past the border, they are home free. And I think the main 
point of my testimony is that our immigration policy is so 
dysfunctional beyond the border because we basically do nothing 
about the 8 million plus that are already here, everyone in 
Mexico or Central America, they know that. They know if they 
can get past the border they are home free. They will get a 
job, no one is going to bother them. The police won't look for 
them. The INS or the new INS, BICE, there is no real interior 
enforcement capability. If they are lucky, their kids will get 
a free education, they will get medical care, they will get 
public benefits, they will get driver's licenses, they will get 
college aid, in-State tuition. We have laid out a potpourri of 
benefits that people in the Third World recognize. So, yes, I 
will volunteer to take the risk, because I know that the reward 
is tremendous if I can survive.
    Mr. Hostettler. You make another point in your written 
testimony speaking to the issue once you get here, you are 
``home free'' in your words. You say the following, quote, and 
we need to stop the talk of a coming amnesty or a guest working 
program, both of which by themselves serve to encourage 
additional illegal immigration. What kind of message are we 
sending when we dangle that possibility before people desperate 
enough to put their lives at risk, end quote.
    Do you effectively equate the result of discussion of 
amnesty with the result of a discussion of a guest worker 
program with regard to the attraction of illegal immigration 
and those willing to put themselves and their families in this 
risk?
    Mr. Nunez. There are some differences. Obviously, amnesty 
is the brass ring. That is the best benefit you can get. Guest 
worker, we have a guest worker program now, but nobody wants to 
use it. The immigration policy, the immigration law in United 
States provides a number of ways for employers to import 
workers. Employers don't want to do it because it is easier to 
hire illegals. So why another guest worker program? We already 
have guest worker programs for farmers, for any industry.
    Mr. Hostettler. Thank you. Agent Garza, is it correct, as 
some have done, to Blame Border patrol policies for aliens 
dying while trying to cross the border illegally, in your 
opinion?
    Mr. Garza. In my opinion, absolutely not. The Border Patrol 
is like any other law enforcement agency. When we see a 
problem, we address it. Naturally, when our strategy calls for 
moving our resources forward and stopping the flow, the alien 
or the smugglers will move to other areas and in those 
instances, it is the smugglers, not the Border Patrol agents, 
that put these people in jeopardy. As far as the risks are 
concerned, sometimes the aliens must not know the risks, but 
the smugglers know the risks, and the Border Patrol has been 
involved in these Border Safety Initiatives since 1998. We are 
the most proactive agency in addressing the issues of border 
safety, more than any other agency on either side of the 
border. We have this public information campaign. Recently, 
after the tragedy in Victoria, those handbills that we are 
passing out to the truck drivers, trying to discourage them by 
educating them as to the consequences of illegal aliens, public 
service announcements that we have had aired in the Republic of 
Mexico, Central America. And the Border Safety Initiatives such 
as the 1-800 numbers, training our people to respond to 
emergencies and just working, even working with the Mexican 
Government to raise the awareness every which way that we can 
think of.
    In my sector with the boat patrol, we were one of the first 
sectors that started patrolling the river 24 hours a day. Our 
agents are not there in the middle of the river in boats to 
arrest people. They are there to talk to them on the loud 
speaker if they are going to enter illegally or to rescue them 
they should fall into distress. That is the only time our boat 
patrol people will try to touch an alien. Because we don't want 
to cause them any harm. But the Border Patrol is very active in 
this area. And absolutely not, I don't think the Border Patrol 
is to blame for these tragedies.
    Mr. Hostettler. Thank you, Agent Garza. The Chair now 
recognizes the gentlelady from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Thank to you all 
the witnesses who have presented us challenges today that I 
think we can work together.
    Let me raise questions that I hope will work with helping 
Mr. Garza and Mr. Homan. And Mr. Homan, being part of the 
investigation, we appreciate the work that was done. That was 
enormous tragedy. It impacted not only the victims, the 
immediate victims who lost their lives, but certainly many of 
their families have legal status here in the United States.
    One of the issues that I have come across is the ability to 
really go after, as you have indicated, the smuggling rings, to 
really go after these commercial rings for whatever purposes 
they may be organized. And I notice that your testimony talks 
about the overarching, antismuggling-human trafficking strategy 
requires intelligence-driven investigations against major 
violators. So you need information; is that not correct?
    Mr. Homan. Well, under the new agency, ICE brought to bear 
the new integrated and unique authorities from customs, legacy 
INS, Federal Protective Service and Air Marine Interdiction. 
They all have intelligence branches. All those branches are 
being coordinated, all the information is being shared.
    Ms. Jackson Lee. So you need to receive information that is 
my question?
    Mr. Homan. Right.
    Ms. Jackson Lee. If we had legislation that would provide 
extra incentives to those victims, to help smash the rings, as 
I think Ms. Jimenez indicated that she went to an apartment, 
and first it was fear, and then they began to provide 
information, would that be helpful in your operations if you 
could get the family members and even the victims to come 
forward, provide a close contact information right away, would 
that be helpful?
    Mr. Homan. Well, in some cases, the family members do come 
forward now. For instance, in Victoria the Mexican-American 
community was outraged. Many families came forward through the 
Mexican----
    Ms. Jackson Lee. But extra incentives, would that help 
others who may not have been involved in such a terrible 
tragedy come forward?
    Mr. Homan. Yes.
    Ms. Jackson Lee. Thank you very much, Mr. Homan. Mr. Garza, 
I understand that there is a memo from the Department of 
Justice that indicated that there was a utilization in February 
of 2002 of some unique technology, AVIAN, I believe it is the 
Advance Vehicle Integration and Notification, has to do with 
sensoring the heart beat, it is technology that has come from 
the Department of Energy, where this equipment would be able to 
sensor human life inside these large--and I saw the large 18-
wheeler, huge, obviously with no ventilation. Is that the kind 
of technology are you suggesting in the work that you do at the 
border? When I say you are suggesting, would additional 
technology help you? We are looking at technology. I am a 
Member of the Homeland Security Committee that has been to the 
northern border. We have been to the southern border, at least 
I have. And I notice that these are busy borders. These are 
enormous borders. And so we want to ask the question whether 
additional resources and technology in your hands, would that 
help you detect human cargo, would that not be helpful to you?
    This indicated that this technology was used in an 
experimental fashion on February 7th and 8th in 2002. It may 
not have come to your attention, but it has to do with being 
able to use this sensor equipment without even opening the 
cargo, but being able to do so on the basis of suspiciousness.
    Mr. Garza. Thank you, Ms. Jackson Lee. And absolutely, that 
technology would help us. I am not familiar with this 
particular technology that you are talking about. At our 
checkpoints, we are pressed with high volumes of traffic. We 
have about 15 seconds per vehicle. That is always a concern 
about how much time you take to look at a vehicle. On top of 
that, we have to comply with the laws of search and seizure. As 
you know, our check points are not equivalent of the border. So 
we have to do things according to the rules. Since the tragedy, 
and now that we are the Bureau of Customs and Border 
Protection, the McAllen Border Patrol Sector has been using 
vehicle cargo inspection machines, x-ray machines that the 
Customs Agency Service was using at the ports of entry.
    Ms. Jackson Lee. So the greater technology would help you? 
The only reason I am asking you that question is it would help? 
New resources?
    Mr. Garza. No question about it, Congresswoman Lee.
    Ms. Jackson Lee. Let me ask you on the issue of incentives 
for those that would help provide with you information. Because 
you are the law enforcement, you are on the ground, even though 
you are at the border, but you provide information as well, 
would that not provide you a greater opportunity to get this 
information, help smash those rings?
    Mr. Garza. Yes.
    Ms. Jackson Lee. Let me just to Ms. Jimenez, Mr. Chairman, 
if I may. The days after the tragedy dealing with Victoria, and 
you have seen many tragedies, and we appreciate the leadership 
have you given to the City of Houston as the Chairman of the 
City of Houston Advisory Committee on Immigration and Refugees, 
in seeing that, what is the key that you gleaned from these 
individuals coming across the border? And the vulnerabilities 
that they may face? How many families did have you to deal with 
who suffered a great loss because of the tragedy that occurred 
to their family members?
    Ms. Jimenez. In these particular cases, we deal with them 
on almost a daily basis. They are not new to immigrant 
communities. This one was very tragic because so many families 
were involved. I would like to just put in perspective the 
situation of the well-being and the responsibility that we do 
have as a society toward ensuring that people's lives are 
protected. I hear that, well, it was people, it was their 
choice to engage in this activity. We can say the same of 
teenagers who are involved in car accidents, or we can say the 
same of women who choose to be in abusive relationships with 
their spouses. Nonetheless, as a society and the United States 
Constitution, we search for the well-being of persons within 
our borders. And the 14th amendment guarantees those 
protections to all persons. And so in that sense, I did want to 
put that in perspective. And in dealing with these tragedies on 
a daily basis because we do so and have done so over many, many 
years, families, you know, it was a bad trip. It is a 
commercial enterprise. It is a necessity to contract these 
services so that is what people say. It was simply a bad trip. 
They do want the person held accountable.
    The only way I can relate it to you is when a business 
operation, for instance, restaurants doesn't put its food at 
the right temperature and all the people in the restaurant 
become sick and maybe some even die, there is a call for 
accountability of that business person, there is a call for 
accountability within the community for those people, but that 
doesn't mean people won't go back to the restaurant, doesn't 
mean people won't engage with another person hoping that this 
time this trip will be a safe one. And I can't stress this, 
that is why I congratulate Mr. Flake and his colleagues for the 
bill that they have developed because I think it recognizes the 
reality, that integrated relationship, in terms of labor 
markets in Mexico, in the United States and Canada, at least in 
the three countries.
    And the families, like all families in such situations, do 
go through the suffering that any human being does when there 
is a loss of life. But the family will recuperate and others 
will come.
    Ms. Jackson Lee. You think that financial incentives or 
incentives would help give families more opportunity and 
encouragement to give information, smash these rings?
    Ms. Jimenez. I believe that they will help more than the 
financial incentives, I believe that the incentives are with 
respect to the ability to make a living legally, as they a----
    Ms. Jackson Lee. Access legalization.
    Ms. Jimenez. As they wait the--because they are long 
trials. They have to work. This is one of the problems that is 
happening with the survivors of the Victoria, increasingly they 
want to work. That is why they came, they have a need to 
support families back home and families here, some of them 
lived here. And then the other issue, of course, is simply how 
to deal with other people. One of the recent cases in Houston, 
maybe 2 weeks ago, was a safe house in my own neighborhood a 
few blocks from where I live, in which the 29 people who were 
freed from that particular safe house are now in quarantine 
because they had chicken pox. So now, these people are frozen 
in terms of their ability to earn a living and at the same time 
to be able to be useful as witnesses for the Government.
    Ms. Jackson Lee. I thank the Chair for indulging me. That 
is the same legislation that we have dealing about earning 
access to legalization that I am writing as well.
    Mr. Hostettler. I thank the gentlelady. The Chair now 
recognizes the gentleman from Arizona for 5 minutes, Mr. Flake.
    Mr. Flake. Thank the Chair. Thank the witnesses. Mr. Homan 
and Mr. Garza, whoever is first on this, when someone is caught 
coming across the border, they are taken and their 
identification is taken down through the Ident system, as I 
understand it. With the average person that is caught, how many 
times have they tried previously to come across? I am told that 
there are records of some who have tried dozens and dozens of 
times who are apprehended sometimes and how many times are they 
caught and simply taken back across as opposed to actually 
prosecuted?
    Mr. Garza. Thank you, Mr. Flake. It depends on the 
situation. I cannot give you an answer as three times or four 
times or five times. It would depend on the situation and the 
particular sector that you are operating in. If it is an 
aggravated case, somebody who has been a difficult person to 
apprehend, he could be set up for a prosecution or a 
deportation. Sometimes it is you just catch somebody, he is 
just an illegal entrant, he hasn't entered in 2 years or a 
year, and he enters again or a span of time maybe five times, 
we will set him up for a prosecution or even a deportation 
hearing. But I can't give you a specific answer, sir.
    Mr. Flake. If you looked at your sector and looked at the 
records on the average, how many times would each person have 
been apprehended?
    Mr. Garza. I would say probably about six times.
    Mr. Flake. Mr. Homan, are there any figures on--I know we 
have figure on number of apprehensions per day and per month in 
each sector, and we run those against what happened last year 
and what not, what kind of figures or estimate do we have about 
the number of apprehensions, as opposed to number of successful 
entries if you will, for every person apprehended? How many 
people come across and are not apprehended in some of the 
sectors you are familiar with?
    Mr. Homan. I would have to refer that question to Chief 
Garza because they track the number of border crossings.
    Mr. Flake. Mr. Garza.
    Mr. Garza. I am sorry, Mr. Flake, would you repeat the 
question?
    Mr. Flake. For every person that is apprehended, what are 
the figures on the people that cross successfully or are not 
apprehended, for every person are there two people that come 
across successfully or is it .5, .25? Mr. Garza, I know you 
can't be precise. I know there are some figures out there.
    Mr. Garza. Yes, sir. That is almost an impossible question 
to respond to because not all our border is under control. In 
areas where the border is under control or where we think we 
have an acceptable level of control, such as in Brownsville, 
TX, where we have the human resources and the technology, and 
we patrol on a routine basis and check for tracks at the known 
crossings and things like that, I could probably say 92 
percent. But there are isolated areas such as the west part of 
my sector, Rio Grande City, and up in those areas where we are 
not totally staffed that I could never tell you how many are 
getting away from us. It is a very, very difficult question, 
and all I could ever do is give you an educated guess.
    Mr. Flake. In your opinion, Mr. Homan's as well, would it 
be useful to have a relief valve of some type, where individual 
workers who want to come across, willing workers to come across 
and then return home, where they are getting legal entry, there 
is a legal framework for them, would it make life easier for 
you actually targeting those who want to come across 
extralegally or outside of the system?
    Mr. Garza. Are you asking about a guest working program, 
sir?
    Mr. Flake. Yes.
    Mr. Garza. We already have a system by which people can 
enter the country such as tobacco farmers, and some of the 
States I understand that they import foreign labor and things 
like that. I think--I don't know exactly. I think the difficult 
thing would be to know how many of these people are you going 
to let in. But of course it would always be good if you knew 
who was entering. That is the problem for illegal immigration, 
you don't know these people who are entering.
    Mr. Flake. Mr. Nunez, you don't draw much distinction 
between an amnesty and guest working program. I happen to think 
there is a quite good distinction. If you have, as myself and 
my colleagues are proposing, a temporary worker program where 
those who are here illegally at present are disadvantaged, 
assuming their ultimate goal is to become a citizen of this 
country, are disadvantaged relative to those who apply for a 
similar permit from their home country, be it Mexico or 
Guatemala or elsewhere, is that not an incentive to actually 
return home or not to cross illegally if it is a disadvantage 
to be here illegally in terms of signing up for a guest worker 
program?
    Mr. Nunez. Well, I don't think an employer looks at it that 
way. I think many employers want illegal workers. They don't 
want guest workers because then they have to play by the rules. 
And many employers don't want to play by the rules. They want 
to underpay, mistreat, abuse the workers. So the guest worker 
program will not appeal to at least that group of employers.
    Mr. Flake. I would submit, just my time remaining, I would 
submit that that is say very--there are certainly those, but 
that is a small group. My experience has been that employers 
out there are in legal no man's land. They are required to take 
some identification to ensure that the person is here legally. 
But they can't ask twice or they can't ask for too much for 
fear of being sued. It has been my experience that employers 
want to play within the rules. They would love to, but it is a 
very difficult thing right now.
    Mr. Nunez. If they wanted to play within the rules, they 
could apply to bring in workers legally. The law currently 
allows any employer to do this.
    Mr. Flake. With all due respect, we do have some of those 
programs, H-2-Bs, and some are specific to agriculture or high 
tech industry. We don't have a large, comprehensive, portable 
guest worker program.
    Mr. Nunez. Then the solution would be to expand the, expand 
the existing----
    Mr. Flake. Or create a new categories.
    Mr. Nunez. If you need new categories, but not just open 
the door.
    Mr. Flake. Thank you.
    Mr. Hostettler. Thank the gentleman from Arizona.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. Again, I thank the panel 
for your testimony. This has been interesting to listen here 
today.
    I direct my first question to Mr. Homan. First I want to 
thank you for bringing the documentary on the immigrant 
smuggling that is actually--seeing it makes a difference, so we 
can see how that is done.
    As I sit here and listen to this, it reminds me of the 
Kunta Kinte, the series Roots. People are packed in, when they 
get out, they can barely walk. So now slave ships from the 
south is how I would describe it, in the form of pickup trucks 
and people packed in like sardines. You testified that human 
smuggling worldwide was about a $9.5 billion industry. Do you 
know how much of that is related to the United States itself, 
of that 9.57 billion?
    Mr. Homan. No. I do not. A vast majority.
    Mr. King. Really. So that would mean certainly over half. 
So is it, could be conceivably $4 and a half to $5 and a half, 
even more, billion?
    Mr. Homan. I wouldn't have the exact figures. Smuggling 
occurs globally in all countries, but the United States is by 
far the most popular destination for smuggled aliens and 
organizations.
    Mr. King. Would that be a number that could you provide to 
this Committee?
    Mr. Homan. I could get back to you on that. I would have to 
check on that.
    Mr. King. I would think if that is a quantifiable number, 
it would be broken down Nation to Nation or at least by 
hemisphere. I would be very interested in that and ask you to 
do that. Then the numbers that you have given us, and I see the 
difference between 17 and 19, two died later in that particular 
incident, do you have an estimate of the annual deaths due to 
human smuggling coming into the United States?
    Mr. Homan. Approximately 200 to 300 per year annually. I 
believe Chief Garza in discussions with him yesterday has the 
exact figure for the last couple fiscal years.
    Mr. King. Two hundred to 300 is in the region. Then I don't 
see Mr. Smith here, but I would credit this to him. As he 
pointed out in previous hearings, 20 percent of our prisons are 
populated by illegal aliens. Would you have any idea how many 
American citizens are murdered on an annual basis by an 
undocumented or illegal aliens?
    Mr. Homan. I do not have the exact figures, but I can say 
that criminal aliens pose a great risk to the citizens of this 
country.
    Mr. King. The equation of how many are seeking to enter 
this country illegally versus how many citizens murdered by 
those illegals is a legitimate evaluation of our policy.
    Mr. Homan. Yes, sir.
    Mr. King. Thank you very much, Mr. Homan.
    Mr. Garza, yours was also very interesting testimony. And 
the way you have utilized resources there in showing the 
positive results. I particularly appreciate the technology and 
the methods you have and also the tone that you presented this 
with. The fact that you are not there necessarily to apprehend 
but to warn and to take care of people. I think Mr. Flake may 
have asked this question a little bit differently, but if we 
provided those resources and you the authority for the entire 
southern border, by what percentage illegal border crossings do 
you think would be reduced?
    Mr. Garza. That is a very difficult question. The border is 
very long. We are responsible for the northern border and 
southern border. In my area, the areas that I have under 
control, I can tell you with some sense of certainty that 
places like Brownsville, TX, we could have about 90 percent 
effectiveness with the resources that we have there. But to try 
to establish that type of control throughout the Mexican border 
would be something very, very difficult. Regardless, I think 
somebody would crack through the line, even if we had that many 
resources.
    Mr. King. Thank you very much. Mr. Nunez, as I listen to 
your testimony, it struck me that you might be the person to 
ask this question. That is if we continue on the current 
policy, what does America look like to you at 25 and 50 years 
down the road?
    Mr. Nunez. Well, you look at the census projections and 
again depending on what you want America to look like, we are 
rapidly growing past all of the initial projections that the 
census and demographers predicted back in 1970. So the impact 
on air quality, water quality, you know, environmental issues, 
how many people live in a certain area, I mean those--most 
people don't want to live in a congested befouled environment. 
So I am very concerned. Even at the number of legal immigrants 
we are allowing in, I think it is way past what is in the 
national interest at this time in our evolution as a country. 
It is the highest sustained immigration in the history of the 
country. We are not building transcontinental railroads, we are 
not trying to settle the Middle West or fill up the western 
half of the country, so I see no rational interest in what we 
are currently doing.
    And I think you can clearly make the case that the more 
legal immigration you have, the more illegal immigration 
results from that because people who come always leave somebody 
behind. And not everybody can come legally, every year, so 
whoever is left behind, now they have got an anchor in the U.S. 
somewhere, so it just promotes more immigration. And it just 
never stops. So we are clearly headed, I think, in the wrong 
direction, and the America that I see down the road is an 
overcrowded, unpleasant place to be.
    Mr. King. Thank you. Thank you, Mr. Chairman.
    Mr. Hostettler. Thank the gentleman from Iowa.
    The Chair now recognizes the gentleman from California, Mr. 
Gallegly, for 5 minutes.
    Mr. Gallegly. Thank you, Mr. Chairman.
    I really appreciated the testimony of each of the 
witnesses. I find it very interesting.
    Ms. Jimenez, you have focused a great deal on an issue that 
is a concern to everyone and that is the safety of people that 
are illegally crossing the border; is that correct? That has 
been a major concern of yours for a long time?
    Ms. Jimenez. Yes. It has.
    Mr. Gallegly. Would you----
    Ms. Jimenez. Yes, that has been a major concern. It was our 
work that asked the University of Houston to do the first study 
of death at the border.
    Mr. Gallegly. Would you say then that your concern has been 
to look out for the safety of those that have illegally 
crossed, illegal crossings and the all the potential danger 
involved in that would it be safe to say that have you been one 
of those campaigning aggressively to encourage people not to 
illegally cross the border?
    Ms. Jimenez. That I--none of us want to cross without 
Government authorization. If people had an alternative----
    Mr. Gallegly. Have you been aggressively outspoken in 
discouraging people from trying to come into the country 
illegally?
    Ms. Jimenez. I think that anyone in the immigrant community 
understands, and I myself understand, of the great dangers of 
crossing----
    Mr. Gallegly. Would you----
    Ms. Jimenez.--without documentation.
    Mr. Gallegly. Would you----
    Ms. Jimenez. I don't think anyone, willingly, wants to 
contract a smuggler, cross borders, deserts, mountains----
    Mr. Gallegly. Ms.--Ms.----
    Ms. Jimenez.--die in the desert or pack in the back of a 
trailer.
    Mr. Gallegly. Ms. Jimenez, would you say that the fact that 
we have, as we know, millions of people that are in this 
country illegally, and there is a notion out there, I think as 
evidenced by the witnesses and general knowledge, that the 
overwhelming majority of the people that once they get into 
this country feel as though they are in a pretty safe position 
because of the lack of interior enforcement or the will to 
enforce our immigration, whatever that issue is, that this 
provides a great incentive for people to take a chance to come 
across the border; is that a safe assessment?
    Ms. Jimenez. I believe that people understand that you live 
in fear of an instability in the family and the community if 
you know that Immigration and Naturalization Service will take 
you at any moment. I can give you an example. A week and a half 
ago my father and I were watching television, we had four 
agents of the INS come into our home----
    Mr. Gallegly. I think we know that is an exception rather 
than the rule, that otherwise we wouldn't have 8 or 10 million 
people illegally in the country. Would you say that the fact 
that many people do believe that once they get here that the 
biggest hurdle is over; is that a safe assessment?
    Ms. Jimenez. Well, that is----
    Mr. Gallegly. Yes or no.
    Ms. Jimenez. Yes.
    Mr. Gallegly. That being the case, would you say that it 
would be very wise for to us have a very aggressive program to 
remove those that are illegally in the country to remove that 
incentive, to enforce the immigration laws of the country, 
would you say that would be a bad or good idea?
    Ms. Jimenez. If you wanted to have a police state, I think 
that is correct. The Mexican community has gone through that 
during the Depression, the repatriation program of the United 
States in cooperation with the Mexican Government. Over half a 
million people were repatriated to Mexico. And it is--there are 
many stories of deaths of people----
    Mr. Gallegly. We are----
    Ms. Jimenez.--on the repatriation to Mexico.
    Mr. Gallegly. So in other words, you are basically saying 
you don't think that would be a good idea.
    Ms. Jimenez. I think you should legalize people. People in 
my community, in the immigrant community, when you ask them 
what do we do with the undocumented, they rarely answer deport 
them. Their answer is document them.
    Mr. Gallegly. If you can illegally get into the candy 
store, once you are there you should be able to take whatever--
--
    Ms. Jimenez. I think you should have alternatives of coming 
in legally as a first priority.
    Mr. Gallegly. If you haven't done that and you have entered 
illegally, do you think you should be removed and given an 
opportunity to be processed legally?
    Ms. Jimenez. I think you should have an opportunity, 
demonstrated rewards.
    Mr. Gallegly. After or before you have returned to your 
native land?
    Ms. Jimenez. I think we have a problem of people who are 
already settled here. I know many people that who have been 
here since 1977, and they still don't have legal documents.
    Mr. Gallegly. People that were here in 1977 had the right 
to apply for amnesty and go through the process, in fact, about 
57 million people did that.
    Ms. Jimenez. Not if--I can give you cases in Houston, not 
if they were some shyster who said they would turn in their 
papers and they didn't. So they missed that opportunity, not 
necessarily because they didn't comply, but because having an 
undocumented population is a big business for many, many people 
and they are interested in keeping it that way.
    Mr. Gallegly. Mr. Chairman, just for the record, may I ask 
one short, hopefully, what hopefully will be a very quick----
    Mr. Hostettler. Without objection.
    Mr. Gallegly. Ms. Jimenez, I think it is commendable you 
are an American citizen. You have pledged your allegiance to 
this country as an immigrant. I would like to see everyone that 
is legally in this country, aggressively, be willing to pledge 
their allegiance to this country if they are here legally. If 
they are here illegally, I think they should return to their 
homeland. Could you share with the Committee, as an immigrant, 
how you initially entered the United States?
    Ms. Jimenez. My father entered legally in 1956. And he 
brought our family legally into the United States in 1957. But 
at that time, it was fairly easy for someone with my father's 
skill, he is a machinist to quickly get his legal work done, 
and it only took us a year of petitioning. Now, it take years 
for a Mexican family to be reunited.
    Mr. Gallegly. Mr. Chairman, I thank you, and I yield back.
    Mr. Hostettler. Thank the gentleman from California.
    The Chair will now entertain a second round of questions 
and will yield to the gentlelady from Texas, Ms. Jackson Lee, 
who has an appointment elsewhere. So we wanted to facilitate 
her asking questions.
    Ms. Jackson Lee. Thank you, Mr. Chairman. The Homeland 
Security Legislation is on the floor, and I am on that 
Committee, and I thank you very much for your, again, for your 
indulgence.
    Let me pursue. Ms. Jimenez, as you well know, we are 
writing legislation, in particular, on trying to smash 
smuggling rings and bring a real answer to this concern. The 
Jackson Lee Legislation in particular has a provision that 
deals with the new class of nonimmigrant aliens even the 
ability to earn access to legalization. Would that be a viable 
tool to deal with individuals who are not trying to come to do 
harm to the United States, but, in fact, are coming to fill in 
many of the gaps in the workforce that are here in this 
country?
    Ms. Jimenez. Legalization and permanent residency, for 
those already here and in the future, is probably the most 
effective method combating these type of operations. Even the 
billions of dollars that are reaped by these commercial 
enterprises could easily be reoriented toward the U.S. Treasury 
because immigrants are willing to pay $1,500, $2,000, every 
time they cross. And have demonstrated that they----
    Ms. Jackson Lee. So that nonimmigrant status would be 
helpful, in this portion of the bill that I am writing, would 
be helpful?
    Ms. Jimenez. Yes, that would be helpful.
    Ms. Jackson Lee. And the incentives to provide to families 
to provide information to the source, the actual source, the 
culprits, would that be helpful as well?
    Ms. Jimenez. It would provide an incentive for many people 
to come forward that other wise don't.
    Ms. Jackson Lee. If I might, I would ask to have an article 
dated Sunday, June 17, 2003, in the New York Daily News, I 
believe refugees still held captive by red tape. I would like 
to ask unanimous consent to include this in the record.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. It begins: Michael Chin vividly remembers 
the Golden Venture as if it were yesterday. He will never 
forget the rats, the rations and his thirst for freedom. 
Michael Chin happened to be a Chinese-American, and he came in 
on the infamous Golden Venture June 6, 1993. To date, Mr. 
Chairman, Mr. Chin is married, and owns a restaurant that many 
Americans are eating in in this part of this country. I think 
the point should be made that the immigrants have come to serve 
a working process or purpose. We understand our responsibility 
to our borders and to our Nation, but we have got to find a 
balance. Let me ask, Mr. Nunez, your history, knowledge of this 
country, were we not built on the work and the influx of 
immigrants in many ways?
    Mr. Nunez. Certainly.
    Ms. Jackson Lee. That is--I thank you very much. I want to 
put that on the record. Let me go again to Mr. Garza. And 
simply say that in the course of working on the Border Patrol, 
as you well know, I have had legislation to increase 
professional development, to provide more resources. And I 
think with Chairman Rogers, formerly of the Committee that 
deals with this and Ranking Member Serrano, all of us and 
dollars have come to the Border Patrol, I think, and we have 
tried to increase your numbers. In the course of seeing the 
kind of individuals coming across the border, the southern 
border, are these the kinds of individuals that--we must be 
astute and learned--I am not disregarding that there are by and 
large terrorists that are inclined to do harm to this Nation. 
What are you finding in your work?
    Mr. Garza. Ms. Jackson Lee, thank you. The majority of the 
people that the Border Patrol encounters are economic refugees. 
They are looking for a better way of life. However, we do have 
a criminal alien situation. And in my sector, we are running a 
pilot program with a system called IAFIS. And we are doing that 
since January. We have had about 10,000 searches into this 
program. We have hit on about 800 criminal aliens, but most of 
the people that are coming in are coming in to look for a 
better way of life. But we do have a criminal alien element 
that is of great concern to many areas of our country.
    Ms. Jackson Lee. So, therefore, if we were to provide you 
legislation that would give you the added incentives, not you, 
but added technology, as I have indicated in previous question 
that you are not familiar with it, but it is in a Department of 
Justice memo that this technology was used in an experimental 
basis, I do know the timing question is an issue but I think 
that with your expertise, you can tell the suspicious looking 
18-wheelers versus the others. And then with laws that might 
provide extra incentives to those who would give information to 
help get at the source of the smuggling rings would be helpful 
as we move to smash these rings?
    Mr. Garza. This technology has been a great help, like 
IAFIS and the extra machines such as are depicted in the 
picture there, for checking those 18-wheelers are a big boost 
to us, although those x-rays machines are not ours, they belong 
to the Customs Agency Service. We are looking to try to acquire 
them, and surely, they would increase our capabilities of doing 
a better job.
    Ms. Jackson Lee. Let me just close by saying that I know 
that the Chair is familiar with this issue. I thank him for his 
good work. I know that you are working with some of these 
individuals who have suffered, but I wanted to acknowledge that 
these were from China who were involved in this. They have 
lived, I think, legally and respectfully here since 1993, and 
they are trying to overcome red tape to get where they need to 
be. But they are serving in their community, and they are 
serving their country, frankly, and they love this country. 
They simply want to be able to access legalization. These are 
the kinds of problems that we need to try and solve. With that, 
Mr. Chairman, I thank you for this very, very, I think, 
effective hearing. Very instructive. Many of us will have 
legislative initiatives that will be moving through the 
Congress. We hope that they will be bipartisan legislative 
initiatives that we can work on and ensure that we solve this 
problem in a fair and just manner.
    Thank you. I yield back.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes himself for 5 minutes.
    Mr. Garza, a couple of times we have been talking about 
technology today, as a result of Ms. Jackson Lee's questions, 
and if you could, just briefly for the record, discuss and 
describe the technology associated with the card that is up 
here with the plate that we have.
    Mr. Garza. Thank you, Mr. Chairman.
    In the checkpoints that we operate in Falfurrias, Texas, 
and Sarita, we have a tremendous volume of 18-wheelers that 
come there on a daily basis. An 18-wheeler is nothing more than 
a container on wheels. These vehicles are very, very difficult 
to check. They are loud, they are high, and an officer cannot 
look in the cab. Our dogs do a great job of detecting loads of 
contraband that may be hidden anywhere on that 18-wheeler.
    In this particular case, you are seeing some aliens up on 
the air dam that we would probably not have caught unless we 
had these x-ray machines that are presently on loan to us from 
the port of entry. They belong to the Customs Service.
    Now, we are the same agency. Because of the merger we were 
able to get them to assist us and provide those x-ray machines 
for us. They are doing a great job for us. But, in some of 
those cases, I feel that if we did not have that technology we 
probably would not have been able to make those cases.
    Mr. Hostettler. Thank you, Agent Garza.
    Mr. Nunez, there has been some discussion about the 
incentivizing of individuals to help in the apprehension and 
prosecution of smugglers and to destroy smuggling rings. The 
folks at the Border Patrol, Agent Garza has supplied us with 
some of the leaflets and other postings that have been done by 
the Border Patrol with regard to disincentivizing those that 
might take part in the process of smuggling illegal aliens into 
the country; and that is available also as a card, as a placard 
that is being displayed right now.
    There are already incentives in the law to allow 
individuals to help in the prosecution of and apprehension of 
smugglers, prosecution of smugglers, and the destruction of 
smuggling rings. Is that not correct?
    Mr. Nunez. Well, yes, there are some. The biggest, I 
suppose, incentive is that, at least for those people who are 
themselves here illegally, there is the incentive that they 
won't be prosecuted for having come here illegally or remaining 
illegally. In fact, you know, during the 20 years of my time 
prosecuting cases, we did not have that particular--the 
proposed incentive, and we really didn't have any problem 
prosecuting alien smuggling cases.
    There is one other issue that you always have to deal with, 
and we--again, we see this in drug cases and tax cases. That 
is, that if you provide an incentive to a witness, that has to 
be disclosed.
    Now the jury is--and the defense attorney is obviously 
going to try to impeach that witness by saying, well, you are 
just testifying so that you will get amnesty;and it would be a 
great fear that we would have to deal with, that people would 
come forward--people that are here illegally would come forward 
to point their finger at some neighbor that they didn't like, 
saying, hey, this guy is a smuggler or he has been involved in 
smuggling; now give me my amnesty.
    So you have to figure out a way to make that incentive not 
lead to perjury and obstruction of justice and other more 
difficult problems.
    Mr. Hostettler. Very good.
    Ms. Jimenez, there has been discussion today about various 
programs to normalize, regularize illegal immigrants into our 
society and give them status. The Immigration Reform and 
Control Act of 1986--I was not here during that process, but my 
understanding is that there was a lot of discussion that it 
would reform and control immigration and especially control 
illegal immigration.
    But, today, as we have heard testimony today, and the 
statistics tells us that we have record levels of legal 
immigration and we have record levels of illegal immigration; 
and if we would pass legislation that would create some new 
form of legalizing of those that are here in the country 
illegally, isn't it--or isn't it our history that this would 
not stop illegal immigration, that there would still be those 
who would seek to enter the country illegally? And if we 
charged people coming into the country, if the Government 
charged them $1,500 to come here, then smugglers would charge a 
thousand dollars to came here, and if we charged a thousand, 
they would charge $750, and there would always be this 
incentive for the illegal immigration process to continue? Is 
that not right, given the history?
    Ms. Jimenez. I think that if you also--beside the reform of 
immigration law--look for ways to expand economic opportunity 
in countries of origin--one of the things I think that is 
usually missed, whether the immigrant is undocumented or not, 
is that the person is also an agent of development in the sense 
that the billions of dollars sent home build communities. But 
they do not build them to the degree that we need to build them 
in order to develop sustainable economies that will allow for 
opportunities south of the border, if we are talking about 
Latin America.
    So I think that, coupled with that, and not just 
immigration reform alone as a unilateral action, one can begin 
to see that legalization does minimize the need for a smuggler 
simply because you don't need to contract, you come in 
perfectly without any problem. And I think that the reason that 
smuggling rings particularly have consolidated into multi-
billion dollar operations at this point is because it is much, 
much more difficult to cross borders.
    Again, these are studies done by the University of 
Pennsylvania. Doug Massey has studies on this issue. They were 
not as necessary 10 years ago as they have become, because of 
border fortification.
    So legalization will ease that pressure, and I think 
particularly the lead that many of the representatives in 
Congress of Arizona have taken is because I think that they 
have observed that, no matter how much we try to correct after 
the incident happens, that there is a benefit in preventing it 
from happening and that one of those avenues is mechanisms of 
legal migration, whether they be temporary workers, as 
described in the bill that Mr. Flake has, or permanent 
residency, as the one that Ms. Jackson Lee has.
    Mr. Hostettler. The Chair recognizes himself for an 
additional minute.
    I want to follow up. My question dealt mainly with 
immigration into the country. The idea of bettering the 
economic status of other nations is an issue of jurisdiction of 
another Committee. My concern is immigration into the country. 
The experience says that amnesty does not work, and I guess 
what I should say is regularizing those that are here illegally 
does not work. It, in fact, has created--I think the statistics 
would show very easily that it has created an incentive to 
expand illegal entry into this country.
    So it sounds to me like what you are talking about is not 
limited legalization of those that are here but a process 
whereby there is essentially endless legal--and limitless legal 
immigration into the country for anyone in the world that wants 
a better life for themselves. Is that what you are suggesting?
    Because we cannot control the issues of other countries, 
their economic destinies, their political destinies, we are 
asking--you are asking, you are suggesting limitless and 
endless--and when I say endless, I mean no end with regard to 
chronology or time period--immigration to our country until we 
reach a critical mass where most--where everyone that wants a 
job in the world can get and has gotten a job in the world in 
the United States of America. Is that what I am hearing?
    Ms. Jimenez. Well, if I understand from population studies 
of the United Nations, the people--worldwide, the population 
movements, the United States receives 1 percent of those 
movements. So I think first we have to understand the 
percentage that actually do move to this country.
    Mr. Hostettler. If I can. And we constitute 4 percent of 
the world's population. That means a 25 percent increase in the 
population of the United States. So you are right with regard 
to percentage of the world overall. You are correct. But with 
regard to the growth of the United States itself, you are 
suggesting and the United Nations is suggesting 25 percent 
growth of the United States every year.
    Ms. Jimenez. Well, I am not a population expert, so I 
can't--I only know facts which are published and known and in 
many testimonies I am sure that you have had before. But I 
would like to sort of, as part of this dialogue, recommend that 
we do engage in a more serious study as to the effects of 
populations and economic growth.
    One of the arguments that is always placed forth publicly 
by one of our city council people and Mayor Pro Tem Gordon Quan 
in Houston is that if you do take all of the population of the 
United States and put them in California and Nevada, we still 
do not have the density of the population that Japan has. Yet, 
nonetheless, Japan has economic growth and development.
    So there are different issues that perhaps I cannot answer 
because I am not a population expert, but I think it is worth 
exploring and dialoguing about to understand that relationship 
between population growth and movement of people.
    The case we are making is for the case of particularly the 
population that is most--or when NINA says that 1.9 percent of 
the people arrested for being undocumented are Mexican 
Nationals, 97 percent of them are Mexican Nationals, that there 
is at least a case for regulating the entry and exit of persons 
between Mexico and the United States and Canada. It has already 
been designed in terms of free trade agreements as partner 
countries, and labor market integration should be one of those 
goals.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Arizona, Mr. Flake, for 5 minutes.
    Mr. Flake. I thank the Chair.
    I think that--I appreciate the testimony of everyone here 
and the perspective that each of you bring to this.
    I think it is important that when we talk about 
regularizing or we throw terms around like amnesty or guest 
work or whatever that we be precise in what we mean by that. 
The legislation that I and my colleagues have introduced or 
will introduce very soon is not amnesty in any way, shape or 
form.
    Amnesty is saying that, if you are here, that we are going 
to regularize you and make you legal or let you leap-frog over 
others in the process to become a legal permanent resident and 
thereafter a citizen.
    The legislation that we contemplate, that we will 
introduce, actually penalizes someone for being here illegally. 
They have a tougher track to legal permanent residence and then 
citizenship if that track is what they choose to take. So it is 
actually a disincentive to be here illegally.
    But we also recognize--and I think sometimes this is lost 
on people--that not everyone who comes here wants to become a 
legal permanent resident and thereafter a citizen. A good 
portion of those who come here, particular from Mexico, simply 
want to make life better for themselves in Mexico. They can 
only do that by earning money and sending it home to their 
families.
    When we look at the figures, the long-term data, the 
migration studies that been done--and I mentioned before we 
used to have a largely circular pattern of migration. Those who 
had come here stayed an average of 2.6 years. Now, because of 
increased border enforcement, it is more difficult to come. 
They stay an average of 6.6 years.
    A good number--certainly there are people who come here who 
want to become citizens. It is the American dream. A lot of 
people want it. Others simply want to make a life better for 
themselves in their home country and want to send money home to 
do that. So I think we ought to look in totality and look at 
the long-term history that we have with immigration and 
recognize that not everything we associate with one group of 
people applies to another, that there are differing needs that 
migrants have.
    Ms. Jimenez, I was interested in your testimony. Do you 
see--if you have a policy, if you have a guest worker program 
that does not give advantage to those that are here illegally 
right now, if they are not advantaged by being here illegally, 
do you see that as a way to encourage people to come over, 
rather than apply for a similar type of work permit from their 
home country, which would actually give them that advantage to 
somebody who is here illegally?
    Ms. Jimenez. It is difficult for me to answer that question 
because I don't think immigrants or people who migrate think 
of, I am going to move because there is going to be a 
legalization program, and that is going to benefit me. People 
move whether there is or there isn't. They will contract 
smugglers in order to come.
    There are other factors which motivate the people, the 
reasons people come in or out. Now, immigrants have been 
willing in the past to pay penalties such as the penalties by--
required by those in 245(i). They were significant amounts, a 
thousand dollars per person; and they were willing to pay it 
per person and family. So those practices are acceptable in 
immigrant communities.
    Is there an advantage? I think what we are saying is that 
it doesn't make much sense to work out a temporary worker 
program that does not include the protection of rights as well 
as the option for legal permanent residency of those that are 
not in the country if you already have so many within the 
country that don't have legal status.
    Again, I don't think this is the motivating factor for why 
people migrate. That is the essence of criminality around 
undocumented migration, is because the motivations are other 
than legal status. Otherwise, if it was there, people would 
access them; if they are not, people still come.
    Mr. Flake. I want to associate myself with the comments 
made by the Chair with regard to the Immigration Reform and 
Control Act of 1986. I think it was an unmitigated disaster, in 
that you granted amnesty and you encouraged people to came here 
for that purpose; and that is why I think, moving ahead, we 
need to distinguish. Like I said, words are important. We need 
to make sure that we have policies that actually don't 
encourage that but rather policies that recognize why people 
want to came here.
    I thank the Chair.
    Mr. Hostettler. Thank the gentleman.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    The gentlelady from Texas made the remark that we have to 
find a balance to this policy I was raised in a different 
school, if something is wrong, it is wrong; if it is right, it 
is right. Sometimes you can't balance between two opposing 
positions, and this may be one of those. I mean, I can hear 
clear divisions between this panel in the remarks made by the 
testimony.
    But she also asked the question pointedly, I think, of Mr. 
Nunez that was this Nation built by immigrants? I heard an 
answer in the affirmative. It was you, Mr. Nunez?
    Mr. Nunez. Yes.
    Mr. King. Thank you. So the question I would pose would be, 
Ms. Jimenez, do you agree with that comment, that this Nation 
was built by immigrants?
    Ms. Jimenez. Yes.
    Mr. King. Thank you. And then could you name me a nation 
that was not built by immigrants?
    Ms. Jimenez. I guess, previous to the greatest migration to 
the Americas, the European migration, I suppose the Aztec 
nation or the Inca nation.
    Mr. King. They migrated across the Bering Straits, 
according to any anthropologist.
    Ms. Jimenez. Well, thousands of years earlier.
    Mr. King. Thank you.
    I will just go down the panel. Mr. Nunez.
    Mr. Nunez. One modification to my answer. Basically, this 
country was built on legal immigration; and I think that is a 
huge distinction when we are talking about this particular 
issue. We had no immigration laws really until 1882. Everybody 
came legally. Then, even after that, most of the people 
camelegally up until 1965.
    Mr. King. While I have you, can you name a nation that was 
not built by immigrants?
    Mr. Nunez. No, I think Mexico is another nation--all of the 
countries of the Western Hemisphere today, obviously, were 
taken over or populated or colonized or--pick your word--by 
European powers.
    Mr. King. Thank you, Mr. Nunez.
    Mr. Homan.
    Mr. Homan. I do not know of any, sir.
    Mr. King. Thank you.
    Mr. Garza.
    Mr. Garza. I don't know of any, sir.
    Mr. King. Thank you.
    I appreciate having that in the record, that none of us can 
name a nation that was not built by immigrants. That is the 
typical mantra that we hear over and over again is that this 
nation was built by immigrants. It was. We need to respect and 
appreciate the efforts and the contributions made by 
immigrants. But it is world-wide phenomena, and no nation can 
shed itself from that history. We need to construct a nation 
that is built upon a wisdom that goes beyond that statement.
    Let me see. Ms. Jimenez, you know, as I listened to your 
testimony, you made some remarks, including ``that by no means 
are we calling for open borders'' would be one of them; and 
``that we respect the need to maintain sovereignty'' is another 
one.
    Some of your testimony seemed to be somewhat inconsistent 
with those statements, so I would pose to you this question: 
What, in your estimation, would be an appropriate number of 
immigrants to allow into the United States through any means, 
total, between legal and illegal immigration?
    Ms. Jimenez. I leave that up to you. What we do know, 
though, is that the current framework of immigration law 
creates a great deal of obstacles for people in terms of 
adjusting their status as well as in, like in my case----
    Mr. King. However they come here, there are obstacles, that 
is certainly true, and I think you have testified to that very 
well. But how would you propose--if we have a legitimate 
obligation and a right to maintain our sovereignty and control 
our borders and have a limitation on immigration policy, which 
I think we concur that is a logical thing, then how would you 
propose that we maintain those limits? What would you do to 
enforce our laws?
    Ms. Jimenez. Well, I think that if people--I--first of all, 
I do think there is a case for allowing the right of mobility 
between the nations that are part of the North American Free 
Trade Agreement to begin.
    Mr. King. Are you referring to enforcement by----
    Ms. Jimenez. Well, just taking another example of the 
Americans, the Mercosur agreement, in which the eight member 
countries of the Mercosur have agreed to basically allow its 
nationals to work as temporary residents for 2 years in any of 
the member nations----
    Mr. King. Neither does that sound to me like enforcement or 
limitations. I am asking you, would you propose any method or 
would you support any means by which we would limit or enforce 
our border laws?
    Ms. Jimenez. I believe that, in the case of the three 
countries, we do need to look at ways of permitting mobility.
    Mr. King. Rather than enforcement? So you don't want to go 
down the path of enforcement with me. But you have advocated or 
at least suggested that the population density of Japan is 
certainly greater than that of the Southwest, and that that 
would be something that seems to be acceptable in your view. 
Would that also be acceptable for the United States as a whole 
to reach that kind of population density that Japan has?
    Ms. Jimenez. I clarified that I wasn't a population expert. 
What I suggested was that we needed to look, as part of this 
dialogue, which I am thankful that this Committee has taken the 
initiative to begin this dialogue, as to all of the elements in 
terms of economic growth of countries, that we look at the 
example of Japan. Perhaps the Committee could subsequently hold 
hearings with people who are demographic experts in it as well 
as other experts that deal with these types of issues, but I 
think that it is a consideration for those people who 
preoccupy--or are preoccupied with numbers in terms of 
population.
    Mr. King. Ms. Jimenez, I do want to thank you for that. 
That is a legitimate response to my question. It is something 
that should be put on the table and considered, along with a 
whole series of the demographics that we have to consider--
population density, the load on our resources, on our 
environment, on our law enforcement, on our health care, on our 
transportation industries, and our entire infrastructure. The 
pressure and the changes that will inevitably take place in the 
culture of this country versus the culture of the donor 
countries, all of these things need to be considered as we set 
forth on our national policy. Because, as we look back 25 years 
and see what kind of country it was then and what that policy 
brought forth with immigration policies that we have today, we 
need to be able to project that into the future.
    There are very weighty decisions to be made, and those 
decisions are something that I don't hear this Congress really 
looking at or discussing. I appreciate all of the input that 
has come out here today.
    I thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
California, Mr. Gallegly, for 5 minutes.
    Mr. Gallegly. Thank you again, Mr. Chairman.
    I am sorry Sheila isn't here, but I know that Mr. King and 
others have referred to the question that she asked of Mr. 
Nunez as it related to the contribution that immigrants make.
    Let's face it. We are the greatest country on the face of 
the earth, and we are a country of immigrants. We are also a 
country of laws. We allow more people the legal right to 
immigrate to this country every year than all of the rest of 
the countries in the world combined, and I support that.
    I think it was Father Hesburg--and someone correct me if I 
am wrong--that said one of greatest threats that we have to our 
immigration in this country is the fact that the front door is 
being threatened to be closed because the back door is off the 
hinges; and that is something that I think that we have to be 
very, very careful about.
    We have a situation in California, my home State. The 
Golden State, the beautiful State of California, $40 billion in 
red ink. We have a governor that very likely will be recalled, 
the first time in history. Very few have been willing to step 
up to the plate and identify one of the principal reasons that 
the State of California is facing bankruptcy.
    We look at the issues of health care, education, criminal 
justice. And the issue of criminal justice, Mr. King asked the 
question about how many illegal immigrants are in prison. Well, 
I happen to know that, on a Federal basis, my understanding is 
26 percent of the Federal penitentiary population, the people 
are in that penitentiary for committing a crime that has 
nothing to do with their immigration status, yet they are 
illegally in the country.
    In my home county of Ventura I am told by the district 
attorney that 50 percent of the cases where he puts people in 
jail for committing a crime, they are people that are illegally 
in the country.
    The illegal immigrant population in Los Angeles, and to a 
large degree the entire State of California, are using our 
emergency rooms and trauma centers not for emergency care but 
for general health care. Emergency rooms are closing every day. 
We are in an absolute crisis with health care in California.
    The wisdom of our legislature in the State of California is 
denying an American citizen that might have lived in California 
all of their life, transferred to another State for a year 
because of business, their child moves back to California and 
is required to pay in-State--or out-of-State tuition at $18,000 
or $20,000 a year. If you are illegally in the State or if you 
are illegally in the country, you pay $600 or $700, as compared 
to $20,000 for a citizen.
    These are issues that are creating tremendous problems in 
California and across the Nation. This is no longer limited to 
California. Illegal immigration is an issue that someone is 
going to have to be bold enough to stand up and not be mean 
spirited but for the good of the country and for everyone 
involved identify this as a real problem.
    Mr. Homan, a question that I have for you. We have talked a 
lot about the integrity of the border today; and, of course, 
the purpose of this hearing has to do with the smuggling of 
people across the border. But I think that we also have focus 
on why people are coming here to start with, because if there 
was no need there wouldn't be a smuggling problem.
    Do we have the will, do we have the resources, and do we 
have any form of commitment to interior enforcement? Because I 
firmly believe that the issue of interior enforcement is every 
bit as important as border enforcement. Because if you have 
don't have a magnet, vis-a-vis jobs, benefits and so on and so 
forth, there is no reason to come. People don't come to the 
wonderful State of California because of our beautiful beaches. 
There are beautiful beaches in many of the countries that they 
come from.
    Could you address that?
    Mr. Homan. Yes. I have been enforcing immigration laws for 
19 years. I started in the Border Patrol, and I have been a 
special agent for the past 15 years. As a street agent, not a 
policymaker, I can tell you that interior enforcement has not 
received the resources the Border Patrol has. Interior 
enforcement under the legacy INS was not a priority.
    I can honestly say under this new structure we now have an 
organizational structure and operational support through ICE, 
through the leadership of the Assistant Secretary, Michael 
Garcia, and Director of Operations, Michael Dougherty. I can 
tell you that investigators in this country under ICE are 
excited about our new structure and by our new strategy. I can 
honestly say. As an investigator in the field, Operation No 
Mercy in Victoria, TX. Was a clear example of how this new 
integrated authority from all of these legacy agencies came 
together.
    INS now has ability to do data analysis, telecommunication 
intercepts. We bring our experience of alien smuggling to the 
table. This agency I think will excel in interior enforcement 
in the future, like the legacy INS was not allowed to.
    Resources are always an issue. Legacy INS had approximately 
2,000 interior enforcement special agents. After 9/11, the 
Border Patrol saw a huge augmentation in resources. Internal 
enforcement has seen nothing. Under this new integration, we 
now have about 5,500 special agents. We are going through an 
assessment period now of finding out, do we have enough 
resources to attack the issues?
    The strategy is being put in place now, for the incident 
response teams, the proposed command coordination center that 
we are going to set up for incident response teams. So in the 
next few months we are going to find out what our resource 
issue is. But, right now, I can tell you we are in better shape 
now than we were with the legacy INS. The leadership that we 
have now is much better than the leadership I have ever seen in 
the past.
    Mr. Gallegly. Mr. Chairman, unanimous consent for 20 
seconds.
    Mr. Hostettler. Without objection.
    Mr. Gallegly. Mr. Homan, again, for the record, we know 
that the budget has been tripled for INS over a period of 10 or 
12 years. We know that interior enforcement for the last at 
least--I don't know how many years--5 or 6 years has been 
almost nonexistent. For the record, are you absolutely 
convinced that there is going to be a more aggressive 
enforcement on our interior for the purposes of removing 
people, criminal or otherwise, that are illegally in the United 
States?
    Mr. Homan. Since the integration of ICE, I can tell you the 
attitude, the strategy, the leadership has changed. They are 
more dedicated to interior enforcement than I have ever seen in 
19 years.
    Am I convinced we will be successful? We will be a lot more 
successful than we have been in the past.
    Will we need resources? Of course. We are dealing with--you 
know, in San Antonio alone last year, we processed nearly 
10,000 criminal aliens. We did that with a staff of 50 agents, 
half of them dedicated to nothing but the jails and the 
prisons. That leaves another 25 agents to investigate anti-
smuggling investigations, work-site enforcement initiatives 
such as Operation Tarmac, fraud investigations such as the sale 
of fraudulent documents on the street, visa fraud, people 
entering the country through visa fraud.
    One of the things that can help us is I think is this 
Government needs to send a message: If you enter this country 
illegally, we got to stop dangling this carrot of amnesty and 
guest worker programs.
    If there is a legislation on guest worker programs, I am 
hoping it is open to the people in Mexico to enter the United 
States, not giving the opportunity to people that are illegally 
in the United States. Because in my 19 years I have interviewed 
literally thousands of aliens that I have personally arrested; 
and they are all looking for that amnesty. They are all looking 
for that guest worker program.
    So, hopefully, in this legislation--I haven't seen the 
legislation, but, hopefully, they take that into account. 
Because as long as that carrot is being dangled, we are going 
to continue having immigration problems.
    Mr. Gallegly. Thank you, Mr. Chairman. Thank you for a 
very, very good hearing.
    Mr. Hostettler. Thank the gentleman from California.
    The Chair wishes to inform the Committee that the record 
will stay open for 7 days for any additions that Members would 
like to make.
    I would like to thank the witnesses for your very excellent 
testimony and your assistance in this matter. It is our hope 
that the situation that took place in Victoria, TX, is not 
repeated, for the sake of those that may be impacted. I thank 
you for all of your input that you have given today. It has 
been very helpful to the Committee.
    The business of the Subcommittee being completed, this 
hearing is adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of Dan Stein, Executive Director, Federation for 
                      American Immigration Reform

    This statement outlines FAIR's views on the causes and tragic 
consequences of nearly unchecked illegal immigration, including the 
growing development of alien smuggling operations.

                               Background

    Illegal crossing of international borders has always been 
dangerous, as tragically recorded in the shooting deaths of persons 
fleeing persecution at the Berlin Wall. Fortunately, this cruel era is 
behind us, but accidental deaths continue to occur at the U.S.-Mexican 
border and elsewhere. Too often we learn of illegal migrants who drown 
or in past years were hit by vehicles as they ran across the border 
highway in San Diego.
    Today the incidence of tragic deaths in urban areas has declined as 
the Border Patrol has regained control over illegal entry into what 
were once the primary corridors for illegal immigration. The pattern 
has now shifted to deaths in new rugged areas far from population 
settlements. At the same time this pattern of illegal entry has come to 
be associated much more with the operations of alien smugglers than in 
the past. Alien smuggling has become a major business in Mexico, and it 
operates as well on the U.S. side of the border, as was tragically 
demonstrated in recent instances of the deaths of illegal immigrants in 
Victoria, Texas, in highway accidents, and in rail cars used to 
transport illegal aliens into the interior of our country.

    United States and Mexico Share Responsibility for Tragic Losses

    It is clear that this ongoing loss of life of illegal immigrants is 
a challenge to our immigration law enforcement authorities to find 
means to ameliorate the danger without at the same time abrogating 
their responsibility to uphold the law. It seems obvious that the 
current level of continuing illegal immigration across the Mexican-U.S. 
border would not continue at the current level if the Mexican 
government were to adopt an active and continuous policy of 
identifying, apprehending and prosecuting alien smugglers. Recent 
campaigns announced by the Mexican government towards this end should 
be carefully watched to see if they are successful and sustained.
    The responsibility to deter illegal immigration to the United 
States does not, however, lie entirely with Mexico. For example, every 
time local, state, or federal policymakers take steps or announce plans 
for some form of amnesty through a new guestworker program, offer cut-
rate college tuition for illegal aliens graduating from American public 
schools, or otherwise act to make life easier for illegal resident 
aliens, the result is always the same. Predictably, that result is new 
waves of illegal aliens, more death on our desert border, and more 
death at the hands of alien and drug smugglers. Similarly, our efforts 
to diminish the magnet of easy access to jobs in the United States have 
been deficient.

         United States Must Effectively Counter the Work Magnet

    Congress recognized in 1986 that to deter illegal immigration it is 
necessary to deny access by illegal workers to U.S. jobs and adopted 
the employer sanctions system to discourage employers through penalties 
from knowingly hiring illegal alien workers. Ten years later Congress 
acknowledged that the system had a major loophole because employers had 
no way to verify the identity and employment eligibility documents that 
new employees were required to show their employer. The result was the 
establishment of the pilot verification projects. The Basic Pilot 
project has been operated on a test basis since then, has been 
evaluated by outside contractors, and has been found to be successful 
with only minor glitches.
    Congress last year reauthorized the Basic Pilot and other test 
verification studies for another two years even before having received 
or studied the project evaluation. Thus, unless Congress acts more 
expeditiously, the issue of deciding to adopt the document verification 
system as a national mandatory system for all new employees will not be 
on the agenda for at least another year or two.
    FAIR believes that the delay in adopting document verification to 
correct the primary deficiency of the employer sanctions system is 
unconscionable, especially when seen in light of the loss of human life 
that results from the continuing strong magnet of easy access by 
illegal alien workers to U.S. jobs. We urge members of the Subcommittee 
to shortcut the delay built into the reauthorization of the study of 
the Basic Pilot verification system and to initiate legislation to 
implement it at the earliest possible date as a national mandatory 
system.
    It is clear that this will not entirely deny work opportunities to 
illegal alien workers. However, it will remove the job magnet for all 
employers who are unknowingly hiring illegal aliens as a result of 
counterfeit documents, and that is the vast majority of all jobs taken 
by illegal alien workers. When that is achieved, it will be much easier 
to concentrate the enforcement capability of immigration inspectors on 
those employers who continue to knowingly hire and exploit illegal 
alien workers. Prosecutions will become much easier when the defense of 
claiming to be unaware of the status of the illegal alien workers is no 
longer available.
    Those defending a dependence on illegal alien workers are sure to 
claim that large sectors of the economy would collapse if illegal alien 
workers were removed. While it is true that some sectors of the 
economy, e.g., seasonal crop agriculture, have become addicted to 
illegal alien workers, that does not mean that the economic sector 
would confront disaster if illegal aliens were cut off from filling 
those jobs.
    First, the inception of document verification by employers would 
apply only to all new employees. So only newly applying illegal aliens 
would be denied jobs. Illegal alien workers who are already employed 
would be denied employment only when they changed jobs. Thus the 
weaning process would be gradual.
    Secondly, weaning these sectors of the economy from their 
dependence on illegal alien labor is necessary to restore the effective 
operation of the law of supply and demand to the sectors. If the 
employers in these sectors are unable to recruit legal workers for the 
wages that they have been paying--which in inflation adjusted wages are 
lower than were paid thirty years ago--they will have to offer higher 
wages to this most poorly paid segment of the U.S. workforce.
    Third, the operation of document verification will put employers on 
a level playing field that has been absent for a long time. Today, an 
employer who wants to have a stable workforce by attempting to avoid 
hiring illegal alien workers by verifying valid Social Security numbers 
with the SSA, may face unfair competition from a competitor who, 
because of the profit motive, chooses to turn a blind eye toward the 
likelihood that illegal alien workers are on the payroll. This tends to 
penalize the responsible employer and reward the unscrupulous employer.
    Finally, the on-going discussion of a new guestworker agreement to 
deal with the millions of illegal alien workers from Mexico and 
elsewhere ignores the fact that there is already a guestworker program 
designed to provide access by U.S. employers when they can demonstrate 
that they are unable to attract U.S. workers at the prevailing wage. In 
a period of contraction of the illegal alien worker population, there 
would be no reason that the H-2a and H-2b visa programs could not be 
used increasingly with only minor modification during the period of 
weaning away from illegal alien labor.
    The objective would be to assure that temporary workers supplant 
illegal alien workers. The obvious benefits would include combating the 
exploitation of illegal alien workers and assuring a regulated and an 
orderly flow of foreign workers while avoiding the costs and dangers of 
entering the country illegally through smuggling operations. An added 
benefit would be that the job contracting process would assure that 
U.S. workers are not discriminated against by being undercut by illegal 
alien workers.
    To summarize, both Mexico and the United States share a joint 
responsibility to combat the alien smuggling operations that increase 
the jeopardy for aliens attempting to illegally enter our country. 
Congress can make a major contribution to deterring illegal immigration 
and channeling foreign workers into temporary legal work programs by 
establishing the Basic Pilot document verification program as a 
national mandatory system without further delay. This will not only 
combat illegal immigration, it will reduce alien smuggling and the 
attendant risks to the illegal aliens, and it will put U.S. employers 
on a level playing field in which the law of supply and demand is 
restored as the principal means for deciding the earnings of U.S. 
workers.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas
    Last week, prosecutors indicted 14 people who allegedly organized 
or facilitated the smuggling incident that ended on May 14th when a 
crowded trailer was found abandoned at a truck stop in Victoria, 100 
miles southwest of Houston. The 14 were charged with various counts of 
conspiracy to conceal or transport immigrants. Twelve could face the 
death penalty if prosecutors decide to pursue it. More than 70 
immigrants from Mexico, Central America, and the Dominican Republic 
were crammed into the tractor-trailer. Among the dead was a 5-year-old 
boy from Mexico. Seventeen immigrants died at the scene, and 2 others 
died later.
    According to U. S. Attorney Michael Shelby, ``alien smuggling is 
all about money. These aren't people who are trying to make a better 
life for (others) and just providing them a pathway. This is about an 
American dollar bill and people that will do anything and risk anyone's 
life in order to gain that dollar bill.''
    In this incident, the price per immigrant was $1,500 to $1,900. 
Alien smugglers have reaped millions of dollars in profits, with some 
not only collecting a fee up front, but also robbing, beating, and 
raping the immigrants once in the United States.
    Last year, the General Accounting Office (GAO), the investigative 
arm of Congress, was critical of the U.S. Immigration and 
Naturalization Service (INS) with respect to its efforts to combat 
alien smuggling. The GAO said that INS efforts to curb smuggling were 
disorganized, seldom tracked, and did not meet the required level of 
accountability. GAO investigators stated further that in several border 
areas, including Arizona, multiple antismuggling enforcement units 
existed that had overlapping jurisdictions, operated autonomously, and 
reported to different INS officials. The INS officials had no clear 
criteria about which cases needed to be investigated.
    The INS has since been disbanded and its enforcement divisions have 
been folded into the Department of Homeland Security as part of the 
Customs and Border Protection unit. It does not follow necessarily, 
however, that this organizational change will result in more effective 
field operations. We need to use our oversight authority to ensure that 
the Bureau of Customs and Border Protection does not make the same 
mistakes that were made by INS.
    The Arizona border with Mexico has become the hub of alien 
smuggling. About one-third of the 1.2 million arrests of undocumented 
immigrants that the Border Patrol expects to make this year will occur 
along a 260-mile stretch of the U.S.-Mexican border southwest of 
Tucson. This section of the border has alien-smuggling corridors that 
run through hostile desert terrain where there is little or no water, 
and summer temperatures can soar to 120 degrees.
    Last year, Border Patrol agents in the Tucson sector apprehended 
449,675 undocumented aliens, more than 1,200 a day. Despite these 
enforcement efforts, more than a hundred undocumented aliens died in 
the desert, and many more had to be rescued.
    The high level of activity along this border is a consequence of an 
increase in the effectiveness of law enforcement along other sections 
of the border. As it becomes more difficult for the smugglers to cross 
along one section of the border, they shift their smuggling activity to 
another section of the border.
    Alien smuggling will not stop until we establish an immigration 
policy that substantially reduces the need for illegal entry into the 
United States. In the meantime, our highest priority should be to do 
what we can to reduce the deaths. I will be introducing a bill later 
this week that would help in achieving that objective. It would do this 
by establishing a three-point program which has been designed to 
facilitate the investigation and prosecution, or disruption, of 
reckless commercial smuggling operations.
    The first point of this program would provide incentives to 
encourage informants to step forward and assist the federal authorities 
who deal with commercial smuggling operations. The Immigration and 
Nationality Act presently provides a nonimmigrant classification for 
aliens who assist the United States government with the investigation 
and prosecution of a criminal organization or with the investigation 
and prosecution of a terrorist organization. My bill would establish a 
new, third category for aliens who assist the United States government 
with the investigation and prosecution of a commercial smuggling 
operation.
    This new nonimmigrant visa classification would be offered to 
potential informants by the State Department and the Justice 
Department, in addition to being offered by the Homeland Security 
Department. Alien smuggling operates across international lines. No 
single federal agency can deal with it.
    The real incentive, however, would not be a nonimmigrant visa 
classification. It would be lawful permanent resident status. If, in 
the opinion of the Secretary of Homeland Security, the Secretary of 
State, or the Attorney General, the informant has supplied information 
which has substantially contributed to the success of the 
investigation, prosecution, or disruption of a commercial alien 
smuggling operation, the Secretary of Homeland Security would have the 
authority to adjust the status of the informant to that of an alien 
lawfully admitted for permanent residence. Moreover, adjustment of 
status could be offered also to the spouse, the married and unmarried 
sons and daughters, and the parents of the alien.
    The bill also would offer a monetary incentive to become an 
informant. It would establish a reward program to assist in the 
elimination or disruption of commercial alien smuggling operations in 
which aliens are transported in groups of 10 or more, and where either 
the aliens are transported in a manner that endangers their lives or 
the smuggled aliens present a life-threatening health risk to people in 
the United States.
    The rewards program would be similar to the one the State 
Department presently uses to obtain informants in cases involving 
terrorists. It would be administered by the Secretary of Homeland 
Security, in consultation, as appropriate, with the Attorney General 
and the Secretary of State.
    I am concerned about the safety of the people who become 
informants, so the bill also would establish a protection program. If 
the Secretary of Homeland Security, the Secretary of State, or the 
Attorney General determines that the identity of an informant or the 
members of the informant's family must be protected, such official 
would be able to take such lawful action as the official considers 
necessary to protect them.
    The second point in the program would be a penalty enhancement 
provision. In the case of a person who has been convicted of smuggling 
aliens into the United States, the sentencing judge would be able to 
increase the sentence by up to 10 years if the offense was part of 
ongoing commercial smuggling operations, the operations involve the 
transportation of aliens in groups of 10 or more, and either the aliens 
are transported in a manner that endangers their lives or the smuggled 
aliens present a life-threatening health risk to people in the United 
States.
    The third point would be an outreach program. It would require the 
Secretary of Homeland Security, in consultation, as appropriate, with 
the Attorney General and the Secretary of State, to develop and 
implement an outreach program to educate the public here and abroad 
about the penalties for smuggling aliens. It also would provide 
information about the financial rewards and the immigration benefits 
that would be available for assisting in the investigation, disruption, 
or prosecution of a commercial alien smuggling operation.
    I believe that this can be a bipartisan bill and that the three-
point program it would establish would reduce the number of deaths from 
reckless alien smuggling practices.
    Thank you.

                              ----------                              

              Prepared Statement of Congressman Jeff Flake
    Mr. Chairman, I applaud you for your leadership in conducting this 
oversight hearing today on the very important topic of alien smuggling. 
As you know, this issue is of particular relevance in my home state of 
Arizona where, according to the Border Patrol, 146 aliens died in 2002 
while attempting to enter the country from Mexico. As you know, I have 
requested a field hearing by the Subcommittee in Arizona on this very 
important topic, and remain hopeful that a visit by Members of the 
Subcommittee to the southwest border would be instructive to them on 
the many issues facing Arizona as a result of its location on the 
border. But this hearing is certainly a great first step in that 
direction.
    Mr. Chairman, the situation on the U.S.-Mexico border has spawned 
numerous problems. One need only glance at the Arizona papers on any 
day, and the headlines tell countless stories of lost lives, destroyed 
property, and mistreated people--in general, a troubling situation:
    Nearly every day, the desert claims the life of another illegal 
immigrant attempting to enter the U.S., most likely seeking work and 
the chance to make a better life for themselves and their families.
    The Maricopa County Sheriff's office is puzzled by a string of 
execution-style slayings, but speculates that it could be a turf battle 
between rival gangs of coyotes.
    Health care costs have skyrocketed and hospitals have cut back on 
crucial services in Arizona, as they must treat those injured while 
trying to cross the border illegally.
    Shootings on the border have been observed with alarming and 
increasing frequency.
    Frustrated property owners, seeing their property destroyed, and 
fearing the immigrant traffic across their property, take matters into 
their own hands.
    Family members of illegal aliens who have perished at the hands of 
smugglers while attempting to cross the border have filed lawsuits 
against the U.S. government. The lawsuits contend that the immigrants' 
deaths could have been prevented if a humanitarian group had been 
allowed to install water stations in the desert.
    While we may not agree with the choices taken by these immigrants 
to break the law and enter our country without proper authorization, we 
cannot help but be moved by the abuse that many of them face at the 
hands of unscrupulous coyotes. However, sympathy alone is not enough. 
As legislators we are charged with addressing problems as serious as 
the ones faced on the southwestern border, and that is why I believe 
Congress should consider an initiative that could alleviate many of the 
burdens that Arizona and the rest of the country suffers due to the 
problem of illegal immigration. A temporary foreign worker program 
would direct the flow of workers into legal channels and promises to 
aid the government in getting a better handle on who is here and who is 
crossing the border.
    There is a demand in the U.S. for labor that many Mexicans are 
willing to supply. Rather than turning a blind eye to that fact, I 
support a program that would allow these workers legal entry into the 
U.S. so that they can perform the jobs that U.S. employers are 
offering. This legal framework would allow the U.S. to collect taxes 
and would provide the workers a safe and legal way to return to their 
homes and families.
    I recognize that there are many who say the answer to the problem 
of illegal immigration is to tighten border security. Certainly, the 
southwest border should be secured more effectively. However, it is 
naive to assume that more agents along the border alone will stem the 
flow of illegal immigration.
    Research indicates that, prior to the passage of the Immigration 
Reform and Control Act in 1986, the flow of Mexican laborers was 
largely circular. The average stay in the United States of an 
undocumented migrant from Mexico was 2.6 years; by 1998, after the 
enhanced border enforcement of the 1990s, the median stay had risen to 
6.6 years.
    Our border policy aimed at reducing illegal immigration has 
perversely encouraged illegal immigrants to stay in the U.S. Crossing 
the border is risky, so illegal workers are increasingly reluctant to 
repeat the trip more often than necessary once they are here. Also, 
smugglers are expensive, so workers must remain in the U.S. longer to 
pay for the high cost of crossing. A temporary worker program that once 
again permits immigrants to enter and work in the United States, then 
return home again, will re-establish this circular migration flow.
    From 1986 to 1998, the amount of tax dollars that Congress 
appropriated for the INS increased eightfold, and for the Border Patrol 
six fold. The number of Border Patrol agents assigned to the southwest 
border doubled to 8,500. The end result of this huge increase in 
enforcement efforts? More than 7 million illegal aliens reside within 
U.S. borders. How can we honestly tell the taxpayers that this strategy 
has been a success?
    According to Steven Camarota of the Center for Immigration Studies, 
``A real effort to control the border with Mexico would require perhaps 
20,000 agents and the development of a system of formidable fences and 
other barriers along those parts of the border used for illegal 
crossings.'' The wisdom of embarking on such a project is questionable, 
at best, I believe. Many of these illegal immigrants do know the risks 
of an illegal border crossing, and it does not deter them. They believe 
that the opportunities in the U.S. outweigh the risks associated with a 
desert crossing.
    Mr. Chairman, we can crack down on alien smugglers more harshly, 
and impose stricter penalties on them when we catch them. I am working 
on legislation to do just that. However, when we hear law enforcement 
officials estimate that, in certain Mexican border regions, immigrant 
smugglers can earn up to $1.5 million a day, I would submit that we 
cannot fight such irresistible market forces. We need to collect the 
courage to take a serious look at the problems that our current border 
policy has wrought, and acknowledge that there may be a better way to 
address the situation. Let's put the smugglers out of business and 
formulate a more realistic approach.
    Thank you again for the hearing on this important topic. I look 
forward to the testimony of the witnesses.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 

</pre></body></html>
